<html>
<title> - ETHICAL IMPERATIVE FOR REFORM OF OUR IMMIGRATION SYSTEM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   ETHICAL IMPERATIVE FOR REFORM OF 
                         OUR IMMIGRATION SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2010

                               __________

                           Serial No. 111-103

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
57-431                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
TED DEUTCH, Florida                  TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DANIEL MAFFEI, New York
JARED POLIS, Colorado

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

HOWARD L. BERMAN, California         STEVE KING, Iowa
SHEILA JACKSON LEE, Texas            GREGG HARPER, Mississippi
MAXINE WATERS, California            ELTON GALLEGLY, California
PEDRO PIERLUISI, Puerto Rico         DANIEL E. LUNGREN, California
LUIS V. GUTIERREZ, Illinois          TED POE, Texas
LINDA T. SANCHEZ, California         JASON CHAFFETZ, Utah
ANTHONY D. WEINER, New York
CHARLES A. GONZALEZ, Texas
JUDY CHU, California

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 14, 2010

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     2
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................    86

                               WITNESSES

Mr. Richard D. Land, D.Phil, President, The Ethics and Religious 
  Liberty Commission of the Southern Baptist Convention
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
Most Reverend Gerald F. Kicanas, Bishop, Tucson, AZ, Vice-
  President, U.S. Conference of Catholic Bishops
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48
Mr. Mathew D. Staver, Founder and Chairman, Liberty Counsel, Dean 
  and Professor of Law, Liberty University School of Law
  Oral Testimony.................................................    65
  Prepared Statement.............................................    68
Mr. James R. Edwards, Jr., Ph.D., Center for Immigration Studies
  Oral Testimony.................................................    76
  Prepared Statement.............................................    78

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     7
Prepared Statement of the Honorable Maxine Waters, a 
  Representative in Congress from the State of California, and 
  Member, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................    14
Prepared Statement of the Honorable Jason Chaffetz, a 
  Representative in Congress from the State of Utah, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    17
Prepared Statement of the General Board of Church and The United 
  Methodist Church...............................................    84

                                APPENDIX

Material Submitted for the Hearing Record........................   115


                   ETHICAL IMPERATIVE FOR REFORM OF 
                         OUR IMMIGRATION SYSTEM

                              ----------                              


                        WEDNESDAY, JULY 14, 2010

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Conyers, Berman, Jackson 
Lee, Waters, Pierluisi, Gutierrez, Gonzalez, Chu, King, Smith, 
Lungren, and Poe.
    Staff Present: (Majority) Ur Mendoza Jaddou, Subcommittee 
Chief Counsel; David Shahoulian, Counsel; and (Minority) George 
Fishman, Counsel.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    I would like to welcome our witnesses, Members of the 
Immigration Subcommittee, and others who have joined us today 
for the Subcommittee's hearing on the ``Ethical Imperative for 
Reform of Our Immigration System.''
    Today, we welcome very important leaders from the faith 
community, who are here to share with us their perspectives on 
current immigration policy and the need for an overhaul of our 
Nation's system.
    Faith-based organizations often lead our Nation in the 
ongoing discussion over immigration reform. Over the past 
decade, faith leaders have often shepherded the often 
contentious national debate over our immigration system by 
framing it as a moral and ethical question.
    The United States Conference of Catholic Bishops was an 
early leader in bringing faith communities to the table. More 
recently, organizations and denominations such as the National 
Association of Evangelicals, the Southern Baptist Convention, 
and the Liberty Council Legal Ministry, have assumed 
significant leadership on the issue.
    Creating unprecedented coalitions across the denominations, 
each of these groups has passed a resolution supporting 
comprehensive reform that provides for secured borders, 
immigration laws that meet the economic and family 
reunification needs of our country, and an earned path of legal 
status for hardworking immigrants who pay a fine, pass a 
criminal background check, and learn English.
    While these groups and I don't always agree on every issue, 
we do agree on this issue, as do most of the American people. A 
recent bipartisan survey found that the vast majority of 
Americans--over 74 percent--support comprehensive immigration 
reform that follows the above principles: border security; 
immigration laws that meet our Nation's needs and the needs of 
our families; and a pathway to legal status for hardworking 
immigrants. In fact, this poll found that 84 percent of people 
who support the Arizona law also support comprehensive 
immigration reform.
    Today, we will hear from those to whom we look for moral 
and ethical guidance about their support for a firm, rational, 
and just immigration policy. I commend our witnesses' efforts 
and their leadership.
    And now I would recognize our minority for an opening 
statement. I understand from Mr. King that he would like Mr. 
Smith, the Ranking Member for the full Committee, to offer his 
opening statement at this time.
    Mr. Smith. Thank you, Madam Chair.
    A recent Zogby survey reenforced what many of us already 
know: Americans, including the religious faithful, want 
America's immigration laws enforced. According to the study of 
likely voters, 54 percent of Catholics, 61 percent of 
Protestants, and 65 percent of born-again Christians support 
attrition of illegal immigration through enforcement.
    I suspect we will hear today that it is somehow immoral or 
unethical to enforce our Nation's laws and that, in fact, 
sometimes we should ignore those laws. For those who want to 
take this approach, there is just one problem. The Bible 
contains numerous passages that support the rule of law. The 
scriptures clearly indicate that God charges civil authorities 
with preserving order, protecting citizens, and punishing 
wrongdoers.
    A prime passage is Romans 13: ``Let every person be subject 
to governing authorities.'' On this passage, the late Father 
Patrick Bascio wrote in his book on the immorality of illegal 
immigration, ``Clearly, this is advice to Christians to follow 
the laws of their nation and to respect the laws of other 
nations. Although Christianity encourages acts of charity, we 
cannot be both charitable and lawbreakers.''
    Now consider Leviticus: ``When a stranger sojourns with you 
in your land, you shall not do him wrong.'' Some claim that the 
passage mandates we welcome any and all foreigners, even those 
in our country illegally. But this and other passages do not 
imply that foreigners should disregard civil laws to enter or 
that we should overlook it when they do. For instance, the law 
for Israel allowed legal distinctions to be drawn between 
native Jews and resident aliens.
    The Hebrew term for ``sojourn,'' as well as the dictionary 
definition, means ``temporary stay.'' A related term used in 
some scriptural translations is ``stranger.'' So this passage 
offers no scriptural sanction for allowing millions of illegal 
immigrants to remain permanently in the United States. 
Furthermore, in the New Testament, according to ``The New 
Westminster Dictionary of the Bible,'' the word ``stranger'' 
denotes one who is simply unknown, not necessarily a foreigner.
    Related to the Leviticus citation is the passage about 
treatment of ``the least of these, my brothers, the hungry, the 
naked, the stranger, the prisoner.'' This quote from Matthew 
plainly advocates individual acts of kindness and does not 
mandate a public policy.
    A note in ``The New Interpreter's Bible'' says, quote, ``It 
is the individual human being, not nations as corporate 
political structures, that stand before the judgment.'' This 
suggests little Biblical support for anyone's claim to have a 
right to remain where they have lived illegally or to obtain 
public benefits, including citizenship.
    Father Bascio takes it a step further stating, quote, ``The 
Christian church currently favors an immigration policy that 
assists those who violate our laws rather than enter the legal 
process that leads to legal immigration. The Christian church 
in some quarters actually recommends to its ministers and 
priests that they break the law by helping illegal immigrants 
who break the law. The church's position disappoints those who 
play by the rules, placing legal immigrants and businesses that 
respect our laws at a great disadvantage,'' end quote.
    Bascio contends that ``the Christian leadership of this 
country, not really comprehending the wide-ranging problems 
connected with illegal immigration, has blessed violating the 
sovereignty of our Nation, depressing the wages of American 
workers, encouraging the growth of the most violent gangs in 
America, driving up Black unemployment.''
    A prime example comes from the Wall Street Journal. After a 
wave of raids by Federal immigration agents on Labor Day 
weekend, a local chicken processing company called Crider lost 
75 percent of its 900-member workforce. But for local African-
Americans, the dramatic appearance of Federal agents presented 
an unexpected opportunity. For the first time in years, local 
officials say, Crider aggressively sought workers from the 
area's State-funded employment office, a key avenue for low-
skilled workers to find jobs. Of 400 candidates sent to Crider, 
most of them Black, the plant hired about 200.
    Bascio says rightly that, quote, ``Those who build their 
empires by constructing the world economic order on the 
foundation of cheap labor are immoral, and their sins cry out 
to heaven for vengeance. Church leaders, we plea with you to 
take note of this,'' end quote.
    The fact is that Americans need not repent for wanting to 
uphold the rule of law and provide jobs for legal workers. I 
agree with Father Bascio's sentiment when he said that illegal 
immigration is not a victimless crime. There are an abundance 
of real victims whom Christians have the moral obligation to 
aid and protect. A truly Christian moral approach would be not 
to acquiesce to illegal immigration but to work to end it.
    Our Nation has a wonderful tradition of welcoming 
newcomers. We admit more than 1 million legal immigrants a 
year--as many as all other nations combined. There is a clear 
difference, though, between those who play by the rules and 
come in the right way and those who don't.
    Madam Chair, before I yield back, let me say that I have 
another Committee markup at which I have an amendment to offer, 
so I will be gone for some time but expect to return. And, with 
that, I will yield back.
    Ms. Lofgren. The gentleman yields back.
    Mr. Conyers, I believe, is on his way and wishes to offer 
an opening statement. But while we await his arrival, I will 
recognize the Ranking Member for his opening statement.
    Mr. King. Thank you, Madam Chair.
    And I want to thank the witnesses in advance for your 
testimony and for coming forward here today.
    This is very interesting to me. This is a bit of a turn 
from what normally we see. The folks on my side of the aisle 
generally are holding scripture and talking about our faith and 
the core of the things that motivate us; people on the other 
side are saying, well, this really isn't a--sometimes even on 
the floor in the Congressional Record say this is not a 
Christian nation. Well, I believe it is. And so, let's examine 
some of that today while we talk about our core values.
    And it turns out--I might have been reading a copy of the 
Bible that is a little different than what we might hear about 
today. I didn't realize that Moses was an illegal immigrant. 
And neither did I realize that King David was an illegal 
immigrant, or that Mary and Joseph were illegal immigrants. I 
didn't realize that the Bible barred the enforcement of 
immigration laws. And neither did I realize that it erased 
borders, demanded pathway to citizenship for illegal 
immigrants, or that the Bible forbids the leaders of a nation 
from caring most about the wellbeing of its own citizens. 
However, the goal of this hearing is apparently to certify the 
self-evident truth of all of these propositions.
    Not only must I have been reading a faulty copy of the 
Bible, but in the land of the Bible, the leaders of today's 
Israel must have been reading the same copy, because they built 
border fences to protect their citizens from terrorists and 
illegal job seekers alike. They deported over 136,000 illegal 
foreign workers between September of 2002 and May of 2005. That 
is modern-day Israel. The percentage that is the equivalent of 
that was about 6.5 million removals in the United States had we 
done the same thing over that same period of time.
    And the law of return applies only to Jews. You know, 
anything less would certainly result in the annihilation of the 
whole of the Jewish people that reside today in Israel. And for 
those reasons, they have their policy, which don't seem to be 
objected to by the clergy in America and certainly not by me. I 
think they have a right for their determination in that faith.
    But, at the base, this concept that animates this hearing 
appears to be that the only Biblically acceptable immigration 
policy is an open-borders policy. Never mind the fact that 4 
out of every 10 Mexican adults that were surveyed would migrate 
to the United States if given the opportunity to do so, and 
that there are 5 billion people on the planet that have a lower 
gross domestic product per capita income and equivalent 
standard of living than the people that--that is out of about 6 
billion people on the planet, about 5 billion of them live in a 
lower standard than the average citizen in Mexico. And never 
mind the devastating effects illegal and low-skilled 
immigration in general are having on this country and 
especially on our most vulnerable citizens.
    And I am pleased that Jim Edwards is here testifying today. 
He has done much to articulate and write about the real clarity 
of the issues in the Bible and how it addresses the immigration 
issues of today and how it applies today.
    He has pointed out some things that I think he may not have 
time to say, and so I would reiterate those here. And one is to 
look back through primarily the Old Testament, but not 
exclusively. Deuteronomy 32:8, ``When the most high gave to the 
nations their inheritance, when he divided mankind, he fixed 
the borders of the peoples according to the number of the sons 
of God.'' And in Ezekiel 47, it details the promised land's 
boundaries. In Numbers 34, describes the borders the Lord 
established for each tribe of Israel. Deuteronomy 19 commands 
against ``moving a neighboring tribe's boundary stone marking a 
given tribe of Israel's inheritance in the promised land.''
    Mr. Edwards also writes elsewhere, and St. Paul takes this 
same issue up in Acts. And as St. Paul addresses the Athenians, 
he explains that, and I quote, ``From one man, God made every 
nation of men, that they should inhabit the whole of the earth. 
And he determined the time set forth for them and the exact 
places where they should be,'' end quote.
    Mr. Edwards points out, of course, some other issues in the 
Old and New Testament. One is in Matthew where Jesus says, 
``Therefore render unto Caesar the things that are Caesar's and 
unto God the things that are God's.''
    Mr. Edwards also writes in Timothy that Paul warns that if 
anyone does not provide for his relatives and especially for 
his own family, he has disowned the faith and is worse than an 
unbeliever. Here it is made plain that we each have a very 
special obligation to those who are closest to us by family and 
blood ties, and their needs and welfare must stand tops in our 
priorities.
    And what is said here about the local civic community can 
also be said about the civic community on a larger scale. We, 
as Americans, have a greater and more immediate and moral 
obligation to be concerned with the welfare and quality of life 
in the United States than in other countries, just as the 
residents of those other countries should be more concerned 
with what goes on in their countries.
    Each of us has ties to very peculiaristic communities, and 
we must all acknowledge the legitimacy of those ties and the 
special obligation that we all have to direct our immediate 
attention to the welfare of those very special communities that 
each of us calls our own. Statesmen and political leaders have 
a special obligation to look out for the wellbeing of the 
political communities that are entrusted to our care.
    I would just point out a couple of other points here as I 
close, and that is my church sponsors a Hispanic congregation 
in Minnesota. We take up a collection on a regular basis. And 
that is something that we feel very good about doing.
    And I have sat down and had many conversations with pastors 
that are primarily in my district. And the conflict that we 
have, sitting here as the people who have been entrusted to 
make the laws and the people whose profession and spiritual 
obligation it is to mission to all of the peoples of the earth, 
is that our job is to faithfully make the laws and see to it 
that they are enforced by our executive branch. And I hope you 
will respect that, all of you. And I respect your job and your 
mission to mission to all peoples on earth.
    And so, with that, and I hope that is the appropriate tone 
for this hearing today, Madam Chair, and I would yield back the 
balance of my time.
    Ms. Lofgren. The gentleman's time has expired.
    We will recognize Mr. Conyers for his statement when he 
arrives. And, at this point, in the interest of proceeding 
through the witnesses, we will ask other Members to submit 
their statements for the record. And, without objection, all 
opening statements will be placed in the record.
    [The prepared statement of Ms. Jackson Lee follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    [The prepared statement of Ms. Waters follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    [The prepared statement of Mr. Chaffetz follows:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Lofgren. And, without objection, the Chair is 
authorized to declare a recess of the hearing at any time.
    Now I would like to introduce our witnesses. Each one is 
esteemed.
    And, first, it is my pleasure to introduce Dr. Richard 
Land. Since 1988, Dr. Land has served as president of the 
Southern Baptist Convention's Ethics and Religious Liberty 
Commission, the policy arm of the largest Protestant 
denomination in our country. He is the host of several 
nationally syndicated radio programs and was featured as one of 
the 25 most influential evangelicals in America by Time 
Magazine in 2005.
    Most recently, Dr. Land has been an active convenor of 
Conservatives for Comprehensive Immigration Reform and has co-
authored a white paper on principles for just immigration 
reform, which lays out a moral approach to a comprehensive 
overhaul of our Nation's immigration system.
    Next, I would like to introduce Bishop Kicanas. The Most 
Reverend Gerald F. Kicanas is the seventh bishop of the 
Catholic Archdiocese of Tucson, Arizona, where he has served 
since 2003. He is the vice president of the U.S. Conference of 
Catholic Bishops and a member of the Conference's Committee for 
Migration. He previously served as auxiliary bishop for the 
Archdiocese in Chicago and was director of the Mundelein 
Seminary. For his extraordinary leadership, Bishop Kicanas was 
awarded the Cardinal Joseph Bernadin Award in 2008.
    Next, I would like to introduce Reverend and Dean Mathew D. 
Staver. Dean Staver is chairman and founder of Liberty Counsel, 
a nonprofit legal ministry with a focus on litigation, policy, 
and education. He is dean and professor of law at the Liberty 
University School of Law. A former Seventh Day Adventist 
pastor, Dean Staver has argued twice before the Supreme Court 
of the United States and is the author of 11 books and hundreds 
of articles.
    Most recently, Dean Staver has been active in Conservatives 
for Comprehensive Immigration Reform, a group of over a dozen 
conservative faith-based groups pushing for an overhaul of our 
Nation's immigration system.
    And, finally, I would like to introduce the minority's 
witness, Dr. James Edwards, Jr. Dr. Edwards joined the Center 
for Immigration Studies in 2009 as a fellow. Dr. Edwards was a 
legislative director for Representative Ed Bryant, a former 
colleague of ours and a Member of the House Judiciary 
Immigration Committee when he served here.
    Dr. Edwards was an adjunct fellow with the Hudson Institute 
and was selected as 1998 Lincoln fellow by the Claremont 
Institute. Dr. Edwards authored, with James G. Gimpel, ``The 
Congressional Politics of Immigration Reform.'' He earned his 
doctorate at the University of Tennessee and his bachelor and 
master's degrees at the University of Georgia.
    Now, you have written statements, and those statements will 
be made part of our official record. We are inviting you to 
address us in about 5 minutes' time.
    That little machine on the table, you probably noticed 
before. When it is green, it means there is a lot of time left. 
But when it turns yellow, it means--and it is always 
surprising--there is only 1 minute left. And when it turns red, 
it means actually it has been 5 minutes. Now, we won't cut you 
off in the middle of a sentence, but we would ask that you to 
try to summarize if it goes red so that we can have time for 
Members to pose questions to you subsequent to the testimony.
    So, with that, let us begin with Dr. Land. Thank you so 
much for being here.

TESTIMONY OF RICHARD D. LAND, D.PHIL, PRESIDENT, THE ETHICS AND 
RELIGIOUS LIBERTY COMMISSION OF THE SOUTHERN BAPTIST CONVENTION

    Mr. Land. Thank you. Good morning, Chairwoman Lofgren and 
Ranking Member King, and Members of the Subcommittee.
    The Southern Baptist Convention is the Nation's largest 
Protestant denomination, with more than 16 million members and 
more than 44,000 autonomous local congregations. The Ethics and 
Religious Liberty Commission is the public policy arm of the 
Southern Baptist Convention.
    With an estimated 12 million men, women, and children 
living and working in an undocumented status in the United 
States, we have a crisis. And despite the impasse of previous 
Congresses on immigration reform, I do not believe that that 
crisis is insurmountable. I believe Congress can and should 
devise a plan to bring these people out of the shadows.
    The more protracted the delay in action, the more severe 
the problem will become. I look upon the Arizona law and other 
similar laws to be a symptom. They are a cry for help from 
States that are suffering because the Federal Government has 
not done its duty.
    Like other religious bodies, the Southern Baptist 
Convention has been vocal in the issue of immigration reform. 
In June 2006, the Southern Baptist Convention gathered in 
Greensboro, North Carolina, for its annual meeting and passed a 
resolution by a nearly unanimous vote which called for 
enforcement of immigration laws balanced with compassion for 
those who are here illegally and urged a pathway to legal 
status for them after having secured the border.
    Chief among the resolution's admonitions was a call for the 
Federal Government to provide for the security of our Nation by 
controlling and securing our borders. Clearly, our Federal 
Government has not done that for several decades.
    Fundamentally, I believe Southern Baptists and other 
evangelicals view immigration through the lens of their faith. 
As citizens of the United States, we have an obligation to 
support the government and the government's laws for 
conscience's sake, Romans 13:7. We also have a right to expect 
the government to fulfill its mandate to punish those who break 
the laws and reward those who do not.
    But Southern Baptists also recognize a Biblical mandate to 
care for those who are the least among us, Matthew 25; to care 
for the strangers who reside in our land and to act justly and 
mercifully, Micah 6:8.
    Bearing this in mind, Southern Baptists pledged in their 
2006 resolution, among other things, to call upon Southern 
Baptists to act redemptively and to reach out to meet the 
physical, emotional, and spiritual needs of all immigrants, to 
start English classes on a massive scale, and to encourage them 
toward a path of legal status and/or citizenship.
    But acts of mercy by the church have been and will remain 
insufficient to repair our broken immigration system. Nor is 
the church's responsibility equivalent to the government's. 
While Southern Baptists and other evangelicals will do their 
part individually and collectively as churches to reach out to 
those who are here illegally, only a proper government response 
can resolve our immigration crisis. Your responsibility and 
obligation is different than ours.
    I believe that first of everything must start with border 
security. We have to secure the border. And I think most 
Americans do not accept the argument that our government cannot 
secure the border. The Federal Government has the resources to 
do what it chooses to do and has the will to do. The Internal 
Revenue Service comes to mind. The American citizenry 
understands if we don't pay our taxes, you will come and get 
us.
    And we believe that we have to commit whatever resources 
are necessary to secure the border. That does not mean to close 
the border, but it means to have control of the border, to have 
control over who goes in and who goes out.
    But, you know, the statement was made earlier that it is 
immoral that--some people would argue that it is immoral to 
enforce our Nation's laws. I don't think that is fair and I 
don't think it is right. What is immoral is to not enforce the 
Nation's laws for over two decades and then to say, ``Oh, now 
we are going to enforce the law, and we are going to enforce 
the law retroactively.''
    You know, it would be like if the government sent out a 
letter to every driver in America and said, ``By the way, for 
the last 24 years, we have been conducting surveillance by 
satellite on the interstates. And up until now, we haven't had 
the ability to ticket you for all of the times you exceeded the 
speed limit, but we do now. And so now we are going to send you 
a ticket for every time you exceeded the speed limit 
retroactively over the last 24 years.'' I don't think most 
Americans would think that was fair, and I don't think most 
Americans would accept it.
    I believe that we have to, once we have secured the 
border--and I believe that has to be done with agreed-upon 
metrics that the government puts together and certifies, we 
have met this metric, we have met this metric, we have met this 
metric--then I believe we have to have a 6- to 9-month grace 
period for people who are here in an undocumented status to 
come forward, to register, to agree to pay fines, to pay back 
taxes, to undergo a background check, to learn to read, write, 
and speak English and pass a test that they have done so, and 
go to the back of the line so that they are not being rewarded 
for having come here in an undocumented status, behind those 
who are trying to come here legally. And over a time period, 
they have the opportunity to then get to legal status.
    I do not believe that you can strain the English language 
into saying that that is amnesty. Amnesty is what President 
Carter gave those who avoided service during Vietnam. I would 
have let them come back, too, as President Carter did, but I 
would have let them spend 2 years working at minimum wage in 
veterans hospitals, caring for those who took their place.
    Thank you.
    [The prepared statement of Mr. Land follows:]

                 Prepared Statement of Richard D. Land

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Ms. Lofgren. Thank you very much, Dr. Land.
    Father Kicanas?

 TESTIMONY OF MOST REVEREND GERALD F. KICANAS, BISHOP, TUCSON, 
    AZ, VICE-PRESIDENT, U.S. CONFERENCE OF CATHOLIC BISHOPS

    Reverend Kicanas. Madam Chairman, I am Bishop Gerald 
Kicanas, the bishop of Tucson, Arizona, and vice president of 
the U.S. Conference of Catholic Bishops. And I testify today on 
behalf of the U.S. Catholic Bishops.
    I would like to thank you, Madam Chairman, as well as our 
Ranking Member, Steve King, for holding this hearing today on 
so critical an issue and inviting me to testify. I appreciate 
it.
    Madam Chairman, in my written testimony, I outline at 
length what I and the Catholic bishops are convinced is the 
just and effective public policy needed for repairing our 
broken immigration system. I would like to emphasize this 
morning what I and my fellow bishops think are some of the 
ethical and moral issues in this debate confronting our elected 
officials and our Nation.
    The immigration issue is often dissected in terms of the 
economic, social, or legal impacts on our Nation. What is not 
often acknowledged, and, frankly, is sometimes dismissed, is 
that immigration is ultimately a humanitarian issue, since it 
impacts the basic rights and dignity of millions of persons and 
their families. As such, it has moral implications, especially 
how it impacts the basic survival and decency of life 
experienced by human beings like us.
    Madam Chairman, our current immigration system fails to 
meet the moral test of protecting the basic rights and dignity 
of the human person. As the bishop who oversees the diocese 
along the whole of the Arizona-Mexico border, the epicenter of 
migrant movement, I witness the human consequences of our 
broken immigration system in my diocese's social service 
programs, hospitals, schools, and parishes.
    Regularly, anxious and troubled immigrants come to ask our 
priests, employees for assistance for a loved one, a parent who 
has been detained, a child who has lost a parent, or, 
tragically, a family member who has lost a loved one in the 
harsh Arizona desert. We strive as best we can, realizing that, 
unless we change the laws which apply to immigration, we are 
only providing a Band-Aid to this situation.
    Because of a broken system, immigrant families are being 
separated, migrant workers are subject to exploitation by 
unscrupulous employers, and those attempting to find work by 
coming north are being abused and taken advantage of by human 
smugglers.
    It is shocking to realize that about 5,000 men, women, and 
children have died in the desert since 1998. One such victim 
was Jocelyn Hernandez, age 14, from El Salvador. Her and her 9-
year-old brother were attempting to reunite with their mother 
in California when they became lost in the desert. Jocelyn 
became dehydrated and survived for 4 days until she died. She 
was found on the 12th day. Jocelyn's story, sadly, is being 
repeated far too often along our Arizona border.
    Madam Chairman, the overwhelming majority of migrants 
coming to the United States come not for nefarious purposes but 
to either find work to support their families or to join their 
loved ones. Once here, they do contribute their work and skills 
to our country.
    Yet, on their way north and while in our country, they and 
their families often are subject to the dangers and abuses that 
I have mentioned. This is a situation from a humanitarian and 
ethical standpoint that needs to be addressed. From a moral 
perspective, as a Nation, we cannot accept the toil and taxes 
of immigrants without providing them protection of law.
    Let me address the issue of the rule of law, which is a 
flash point in the debate and to which many immigration reform 
opponents point in arguing against legal status for the 
undocumented. The U.S. Conference wholeheartedly agrees the 
rule of law is paramount and that those who break the law 
should be held accountable. As our testimony points out, 
comprehensive immigration reform would honor the rule of law 
and help restore it by requiring 11 million undocumented to pay 
a fine, pay back taxes, learn English, and get in the back of 
the line. We believe that this is a proportionate penalty.
    Let me also address the issue of border security, the topic 
of much discussion recently, especially in our own State of 
Arizona. Church teaching acknowledges and upholds the right of 
a nation to control its borders. It is our view that the best 
way to secure our southern border is through immigration 
reform. We have spent $100 billion on immigration, border, and 
interior enforcement. The border patrol in the Tucson and Yuma 
sectors, whose work I deeply respect, are trying their best to 
address this difficult situation.
    And I will close there.
    [The prepared statement of Reverend Kicanas follows:]

                Prepared Statement of Gerald F. Kicanas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Thank you very, very much.
    Dean Staver, we would be delighted to hear from you.

 TESTIMONY OF REVEREND MATHEW D. STAVER, FOUNDER AND CHAIRMAN, 
LIBERTY COUNSEL, DEAN AND PROFESSOR OF LAW, LIBERTY UNIVERSITY 
                         SCHOOL OF LAW

    Reverend Staver. Madam Chairman, thank you, distinguished 
Members of Congress, for inviting me to address this important 
issue of immigration. I am Matt Staver, founder and chairman of 
Liberty Counsel, a national legal organization, policy and 
education organization.
    I also serve as dean and professor of law at Liberty 
University School of Law. Liberty University is the largest 
Christian university in the world, with over 62,000 students 
coming from 74 countries.
    I also meet with and chair an organization called the 
Freedom Federation that represents some of the Nation's largest 
multi-ethnic, multi-racial, and multi-generational 
organizations, representing over 40 million people in America.
    The crisis that the country is facing in Arizona is a 
symptom and a cry for help. It is an example of our failed 
immigration policy. However, the Constitution places the 
responsibility for immigration on the Federal Government, not 
on the States. Therefore, it is imperative that Congress act 
sooner than later to reform our immigration system. It is a 
matter of national security, domestic tranquility, and national 
identity.
    While upholding the rule of law, we must devise a system 
that is compassionate and just. The immigration debate does not 
belong to a political party or any socioeconomic or ethnic 
group. It is, in my opinion, a moral issue.
    We should not allow partisan politics or the difficulty of 
crafting a solution to deter us from the ultimate goal of 
fixing a broken system. We must secure our borders, enforce our 
laws, and then we must deal with the undocumented immigrants 
who are currently living within our borders.
    On the national security issue, this is a national security 
and a domestic tranquility issue. It depends upon secure 
borders. Secure borders are not closed borders. Violent 
criminals and drug traffickers take advantage of open borders. 
Such criminals are a threat to everyone in every community.
    We must also enforce our laws against those who knowingly 
employ undocumented immigrants, those who entice them to come 
here illegally, and those who take advantage of them once they 
cross the border.
    Regarding the undocumented immigrants currently living in 
the United States, there are essentially three solutions: 
amnesty, deportation, or earned legal status.
    Amnesty, in my view, flouts the rule of law, rewards those 
who break the law, and is a disservice to those who are and 
have worked their way through the naturalization process. I am 
opposed to amnesty.
    Mass deportation, however, is impractical, immoral, and 
unjust. Many undocumented children have come here with their 
parents. Some children are naturalized citizens, having been 
born in America, yet their parents remain undocumented. 
Deportation in these and many other circumstances would rip 
families apart, which no fair-minded American wants to do.
    While undocumented felons or those who have committed 
violent crimes in America should be deported, we should invite 
the millions of undocumented and otherwise law-abiding persons 
living in our midst to come out of the shadows by providing 
them with an opportunity to gain legal status.
    The opportunity for earned legal status should involve a 
program of legalization subject to appropriate penalties, 
waiting periods, background checks, evidence of moral 
character, a commitment to the full participation in American 
society through an understanding of the English language, an 
understanding and affirmation of the rights and duties of 
citizens and the structure of the government, and an embrace of 
the American values.
    We must create a rational and just immigration policy which 
acknowledges that we are both a Nation of immigrants and a 
Nation of laws. A just policy would put otherwise law-abiding 
persons on one of three paths. One path leads to pursuing 
earned legal citizenship or legal residency. One leads to 
acquiring legal guest-worker status. And one leads back across 
the border, including a swift process for deportation of 
undocumented felons or violent offenders.
    A just immigration policy respects the traditions held by 
the people of many backgrounds that make up America while 
recognizing the importance of a shared language, history, and 
cultural values. Those who choose legal citizenship should have 
the opportunity to fully participate in the American dream by 
removing any barriers to achieving those dreams.
    Let me be very clear. An earned pathway to legal status is 
not amnesty. I reject amnesty. And I call upon those who label 
an earned pathway to legal status as ``amnesty'' to stop 
politicizing this debate needlessly and to honestly acknowledge 
the difference.
    The time to forge a national consensus is now. America is a 
country of immigrants, a melting pot of individuals from 
various ethnicities and cultures. America deserves a just 
immigration policy, one that begins with securing, not closing, 
the borders, one that enforces our laws, and one that offers an 
opportunity for earned legal status.
    The overwhelming attraction of America is her freedom. As 
the world's standard bearer for freedom, America's light shines 
as a hope for those around the world. We must never quench the 
torch of liberty. We must always stand for the freedom that 
makes our shores the object of desire for people without hope.
    Thank you.
    [The prepared statement of Reverend Staver follows:]

                 Prepared Statement of Mathew D. Staver

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Thank you very much, Dean.
    And now we would like to hear from Dr. Edwards.

          TESTIMONY OF JAMES R. EDWARDS, JR., Ph.D., 
                 CENTER FOR IMMIGRATION STUDIES

    Mr. Edwards. Thank you, Madam Chairman.
    First, I will discuss a key Biblical principle that relates 
to today's immigration debate. And, second, I will discuss 
important implications of comprehensive immigration reform.
    First, each Christian is bound by a high moral imperative: 
Love the Lord with all your heart, soul, strength, and mind, 
and love your neighbor as yourself. These cornerstone precepts 
instruct believers personally to ``love your enemies,'' to 
``bless those who curse you,'' to care for ``the least of these 
my brothers.''
    It is unreasonable, though, to try to require civil 
authority to display the same kind of mercy or compassion 
individual Christians are called to show. The God-given role of 
civil governments is as God's agents to constrain evil within 
their jurisdictions. Civil authority wields the sort of justice 
to protect the innocent and punish lawbreakers. The ``things 
that are Caesar's'' are concentrated on justice.
    Public acts of government differ fundamentally from 
individual acts. An individual showing mercy decides willingly 
to bear an injustice. It is merciful when a private person 
turns the other cheek, goes the extra mile, or gives up his 
tunic as well.
    But the government can only obligate the members of its 
society and their common resources. Trying to codify mercy in 
that way, government can end up imposing injustice upon the 
innocent. What might constitute an act of mercy when an 
individual does it becomes an injustice when government uses 
the sword of justice to compel such mercy. Even if well-
intended, such action is unjust.
    Second, we must consider the impact of comprehensive 
immigration reform on our fellow Americans. More than the 
welfare of illegal immigrants is at stake. The foremost 
obligation, legally and morally, of the U.S. Government is the 
welfare of American citizens. The American people would end up 
the forgotten victims of comprehensive immigration reform. It 
would put the most vulnerable Americans at risk, including 
native-born minorities, high school dropouts, and teenagers.
    We had 21 million unemployed or underemployed native-born 
Americans as of third quarter 2009, just a year ago. 
Comprehensive immigration reform would put them up against many 
more job competitors, forcing down the wages these Americans 
could otherwise command.
    Today, fewer than half of American teens have jobs, 
compared with two-thirds in 1994. Yearly average wages of 
native-born men fell 4 percent between 1980 and 2000. For 
native dropouts, it was about twice that, 7.4 percent.
    Consider vulnerable Americans' unemployment situation as of 
a year ago. I am citing the broader U-6 unemployment figure. 
For native-born high school dropouts: 32.4 percent. For native-
born Blacks 18 to 29 years old with just a high school diploma: 
39.8 percent. For native-born Blacks who dropped out of school: 
42.2 percent. For native-born Latinos without a high school 
diploma: 35.6 percent. For native-born Latinos 18 to 29 with 
only a diploma: 33.9 percent.
    There is also the effect on America's current fiscal 
crisis. Many beneficiaries of amnesty would qualify for many 
public programs from which they are currently disqualified. 
Consider Medicaid. Health reform expanded Medicaid up to 133 
percent of poverty. About 3.1 million current illegal aliens 
would qualify for Medicaid. That is an extra $8.1 billion 
annually, or $48.6 billion from 2014 to 2019. That is the first 
budget window.
    In short, what comprehensive immigration reform would do 
unto ``the least of these'' fellow Americans hardly ranks as 
ethical treatment.
    In closing, scripture doesn't detail a normative 
immigration policy. Thus, we have to exercise prudential 
judgment. In 1986, we tried immigration reform that looked much 
like today's proposals. Within a decade, the illegal population 
had grown to three times the size of the 1986 level. The 
enforcement measures failed to secure the border or shut down 
the jobs magnet.
    Pursuing essentially the same failed solution would force 
compassion on our fellow Americans that they can't afford. 
Perhaps the most ethical thing Congress could do is to suspend 
most immigration, at least until unemployment rates drop to 
pre-recession levels.
    Thank you.
    [The prepared statement of Mr. Edwards follows:]

                 Prepared Statement of James R. Edwards

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Ms. Lofgren. Thank you, Dr. Edwards.
    And before proceeding with questions, first, I would like, 
without objection, to submit for the record the testimony of 
the United Methodist Church. We didn't have room for everybody 
who wanted to testify, so that will be added to the record.
    [The information referred to follows:]

         Prepared Statement of the General Board of Church and 
                      The United Methodist Church

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Our Chairman of the full Committee, Mr. 
Conyers, has arrived. And I don't know if he had an opening 
remark that he would like to make.
    Mr. Conyers. If I could just briefly, Madam Chairman and 
Ranking Member King.
    This hearing, I think, is very clearly sort of a landmark 
in this discussion, this national discussion that we are 
entering into. And I am so pleased that the bishop is here, 
that the president of the Southern Baptist Convention is here, 
that the dean of Liberty University Law School is present with 
us, and, of course, Dr. James Edwards. We welcome you all.
    And I have just mentioned to the Chairperson here, and I 
haven't talked to Steve King about it yet, but I just want to 
put on the record that we might like to meet with you after the 
hearing itself to talk about how we can expand our discussion 
beyond the formalities of Committee hearings.
    And I am so pleased and honored that you would be with us 
here in the Judiciary Committee.
    And, if I could, Madam Chair, I would like to yield the 
balance of any time, a few minutes, to our distinguished 
colleague from Illinois, Mr. Gutierrez, who has been deeply 
immersed in this subject.
    Ms. Lofgren. Without objection, our colleague, Mr. 
Gutierrez, and also the chair of the Immigration Task Force for 
the Hispanic Caucus, would take the remainder of the time.
    Mr. Gutierrez. Thank you.
    Let me say to Chairman Conyers, I think your suggestion is 
well-needed. And I would encourage us, as when we met with the 
Speaker of the House, to say to the men and women of faith that 
I think you can save us from ourselves and from our own 
partisan, political bickering. This is a moral issue, and so, 
therefore, I would suggest that you call us to order and that 
you convene the meetings, so that men and women from this side 
of the aisle can meet with men and women from that side of the 
aisle, to put it that way. And you can then discern who is 
working in good faith in order to achieve the goals that we 
should as a government.
    Now, I want to begin just by saying to Dr. James Edwards, I 
listened very closely to your comments. And you want to make a 
distinction between the scripture and civil government, between 
we as Christians and the civil government.
    But our government should be a reflection of who we are. 
What is government but a reflection of the millions of people 
that constitute that government? So when you say that the civil 
government should be different and has a different task, I 
don't see it that way. I want my government to be the best and 
the highest of our moral and ethical standards and of justice. 
That is what I want my government to be. I want it to be a 
reflection of my values, not distance itself from my values.
    And so, I am sorry, I just have to disagree. I think that, 
as I listen to the panelists and they speak--because what are 
we talking about? We talk about them in these terms. And, you 
know, one Member said, ``Well, we give money to the Hispanic 
congregation, and so that means I am not a bad person,'' and 
``4 out of 10 Mexicans''--well, ladies and gentlemen, why do we 
always focus the issue of immigration on the Latino and the 
Mexican community when we know that 40 percent of undocumented 
workers that are in this country came here legally?
    As a matter of fact, we can go to the mall today and there 
are tourists who came here on a tourist visa and will not 
return. There are students that are going to graduate, 
hopefully not from Liberty University, but there are students 
who are going to graduate and never return to their country of 
origin.
    The fact is there are millions of undocumented workers that 
cross legally. And so, when we speak about secure the border, 
secure the border, secure the border, let's be careful about 
the message that we are sending to America, that this is not a 
fight between the United States and Mexico.
    Hundreds of Mexicans died this year, in the last 12 months, 
fighting the drug cartel, fighting the drug cartels that 
provide the insatiable--the thirst that this America has for 
the drugs that come across those borders. We, too, have a 
responsibility--we, too, have a responsibility--for the effect 
that it is having on the civil society in Mexico and their 
inability to continue to create and foster.
    So I just want to say to all of you, thank you for coming 
forward, but let's focus on the human being.
    One last point, if I could just have 15 more seconds.
    Ms. Lofgren. Without objection, the gentleman has 15 more 
seconds to finish.
    Mr. Gutierrez. Because I think what is important is that we 
focus on family. Who are these undocumented workers?
    In my household, I am like most Americans, where only 2 out 
of 10 Americans live with children. Did you know that? In a 
family household, only two. But if you look at the 
undocumented, 5 out of 10 of them live with children. Of 
course, if you came to my house at dinnertime or on the 
weekend, Sunday morning, you would think we still have 
children, because they are always showing up.
    But my point is, these are families. Think about it: 4 
million American citizen children of the undocumented. That 7-
year-old girl asked the First Lady, can you help my mom get 
some papers? We should respond to that 7-year-old girl by 
saying, ``Yeah, we are going to get your mom your papers so she 
can raise the best American citizen child ever in the United 
States of America.''
    Ms. Lofgren. The gentleman's time is expired.
    And because we went to the Chairman for his opening 
statement, I would like to recognize Mr. King for any 
questions. To be fair, I am going back and forth.
    Mr. King. I thank the Chair for recognizing me.
    First, I am looking at the numbers of people we have on our 
side of this, which looks like two. And I look down this end, 
and I see a lot of Democrats that are eager.
    Ms. Lofgren. So you are declining?
    Mr. King. And over here I see three witnesses and one 
witness here, so I would like to defer to the Chair.
    Ms. Lofgren. That is absolutely fine. I will go first then.
    Let me first thank all of you for your testimony. It was 
thoughtful and informative.
    And I would like to give my first question to you, Dean, 
because not only are you a faith leader, but you have argued 
twice before the Supreme Court and you are dean of a law 
school.
    And I was interested in your comment, in your written 
testimony, that you reference in your oral testimony, that 
there is a difference between providing amnesty and providing a 
path to status, and that we need to stop the debate from being 
unnecessarily politicized.
    We all believe that the laws need to be obeyed, but we make 
the laws. And I remember, in 1996, we changed immigration laws 
retroactively. I mean, we made it the case that someone who was 
here--you know, I have run into these situations where someone 
who was brought as a child to the United States really was 
raised in the country, and now they have married, you know, 
their high school boyfriend and they are a married couple, and 
yet that woman has to leave the United States and leave her 
husband for 10 years under the law we passed. That was 
retroactive.
    So I am wondering if you could talk to us about the rule of 
law and how the Congress has an opportunity to make changes to 
have a more rational set of laws, as well as the amnesty 
question, how we might get a grip on that question that is 
constantly thrown about.
    Reverend Staver. Thank you, Madam Chairman.
    Certainly, as dean and professor of law at Liberty 
University School of Law and also founder and chairman of 
Liberty Counsel, a legal organization, and a practicing 
attorney, I support strongly the rule of law. We obviously must 
be a Nation of laws and of rule of law. So I believe that this 
issue is critically important, that we do support our laws.
    Amnesty, however, that has oftentimes been used as a hot-
button flash word. And I believe that is how it oftentimes is 
used, to simply politicize this debate and shut down any 
rational discussion of this debate--should ultimately be 
defined. Amnesty is what Dr. Land said Jimmy Carter did, 
President Jimmy Carter, with those who avoided the draft in 
Vietnam. Amnesty is what President Ronald Reagan did in 1986 
with the immigration issue. Amnesty is complete forgiveness 
without any consequences whatsoever. That is amnesty.
    What I propose is something different. And the reason why I 
propose that is because of several factors. I propose, first of 
all, that you have a pathway to earned legal status, whether 
that is citizenship or temporary residency or worker visa 
status. Something that would be earned, not just simply given. 
Not something that would be guaranteed, but something that 
would be an opportunity to those who are here.
    We oftentimes get into this debate and we forget about--we 
talk about securing our borders. I think people agree we need 
to do that. We talk about enforcing our laws. People agree we 
need to do that. But then they forget about the 12 million or 
so people that are here. We have to deal with them. We cannot 
just simply starve them out, hope that they will go away. We 
have to deal with them and bring them out of the shadows. These 
are individuals like you and I that want to pursue the American 
dream, but sometimes our laws have ultimately put a barrier 
between that and that goal.
    I propose a pathway to earned legal status. And that 
includes those various items that I mentioned: penalties, all 
of the other items, going to the back of the line, and so 
forth. That is different than amnesty.
    And if you look at any law, for example, there is not a 
cookie-cutter penalty for any law that we have. For example, if 
the government were to entrap someone to break the law, the 
penalty on the government is complete victory for that 
individual who is entrapped. In other situations where we have 
different kinds of gradations of violations, we don't give 
everybody the same penalty, whether it is civil or criminal 
penalties. We tailor it based upon the individual.
    Ms. Lofgren. Right.
    Reverend Staver. But, in this case, to just simply deport 
everybody is immoral, and it is not consistent with the rule of 
law. I propose that we have something that deals with this, 
upholding the rule of law, but compassionately and justly deals 
with those who are here within our borders.
    Ms. Lofgren. Thank you.
    Dr. Land, you have spoken out today and also before today 
on the issue of immigration reform. And I understand, and, as a 
matter of fact, gave you a flyer that my office got yesterday, 
that some are suggesting, you know, that they supported you 
before you spoke out, but that now maybe you don't actually 
speak for the pews in your congregation.
    Do you speak for the Southern Baptists, do you think?
    Mr. Land. Well, no one speaks for all Southern Baptists.
    Ms. Lofgren. Well, that would be true for all Catholics, as 
well.
    Mr. Land. The old joke is wherever there are two Southern 
Baptists, there are at least three opinions.
    But I think it is clear that I speak for a majority of 
Southern Baptists. In 2006, the Southern Baptist Convention, 
the last time the Congress was debating this issue, passed a 
resolution overwhelmingly, a 95%-plus vote. And you understand 
that when the Convention passes a resolution, those are elected 
messengers from the 44,000 churches. Each local church elects 
its messengers who go to the Convention and vote their 
conscience. And I think any fair reading of that resolution is 
a policy that secures the borders and then finds a way toward 
legal status, an earned pathway toward legal status.
    Now, I have had some in the press who have said, well, how 
do you know that Southern Baptists agree with you? Well, I 
decided to test that theory. I presented what I have argued is 
a fair and just policy to our Southern Baptist Convention in 
Orlando in June. I have a reporting time during the time of the 
convention, and I gave what I presented today in more detail. 
And it was very enthusiastically supported by the messengers 
that were there. And these are the most involved, the most 
faithful Southern Baptists.
    You have to understand that about--you know, we have 
hundreds of thousands of Hispanic Southern Baptists, many of 
them undocumented, who have come here to the United States. And 
I don't think it is a secret that Southern Baptists are 
evangelistic, which means that we will witness to anyone that 
will stop and listen to us. And so, as a consequence, many of 
those undocumented workers have become Southern Baptists and 
members of Southern Baptist churches and leaders in Southern 
Baptist churches during the last two decades.
    In fact, I had the privilege of speaking to the Southern 
Baptist Hispanic caucus in Orlando during our convention, and, 
of course, they were very supportive of this. They were very 
supportive of what I had laid out, including an earned pathway 
and going to the back of the line, et cetera.
    And, I would hasten to add at the last, I am elected, as 
you are, by Southern Baptists. And our Convention has fired two 
agency heads in the last 5 years. So they know how to do it, 
and they are not bashful about doing it if they think that I am 
not speaking what most Southern Baptists believe.
    Ms. Lofgren. Thank you very much.
    I would recognize Mr. King now for his questions.
    Mr. King. Thank you, Madam Chair.
    This would be an interesting conversation to carry on in a 
setting where we could have point-counterpoint. But I 
appreciate all your testimony here.
    I will maybe start with Reverend Staver and the statements 
that you have made about the word ``amnesty'' politicizing 
this, and you would prefer that we not use that language at 
all. Of course, it is in our dictionary, it is in Black's Law, 
and you recognize that definition when you state that, as one 
definition of it, when Reagan signed the amnesty legislation in 
1986, with a promise that there would never be another amnesty 
and that there would be full Federal enforcement. And I reacted 
to that as an employer. I have my I-9 forms from probably all 
the way back to 1986 still in my files.
    But I would submit this: that we do need to define amnesty 
in a way with more clarity than using examples. And I would 
define amnesty this way--and I have for years, and it is this: 
that to grant amnesty is to pardon immigration law-breakers and 
reward them with the objective of their crime.
    And I would just submit that definition to you and ask, as 
a lawyer, an attorney, as a pastor and someone who has studied 
this thoroughly, how you would react to that definition: a 
pardon for immigration law-breakers coupled with the reward of 
the objective of their crime.
    And we don't know whether their objective is to obtain 
citizenship or a job or to do some of those things that we all 
object to in this discussion.
    Reverend Staver. Congressman King, that definition would 
not be consistent with the rule of law. It wouldn't be 
consistent with the definition that is in Blackstone or Black's 
Law Dictionary.
    Amnesty would be forgiveness, complete forgiveness, where 
you have absolutely no penalty. That is what Ronald Reagan did. 
I don't support what Ronald Reagan did. I don't suppose that 
that is what I am proposing here.
    I am not saying don't use the word ``amnesty,'' but use it 
when you really talk about amnesty.
    Mr. King. Then I would submit, then, Reverend, that the 
path that you have described here is pay a fine, pay the back 
taxes, learn English--that those things are designed to provide 
the objective of the person who had already broken the law. 
Whether it is a fine that is less than one pays a coyote to be 
smuggled into the United States, learning English is something 
that helps one in this path in this country, I don't see that 
as a penalty or any kind of recompense for breaking the law. 
And at least 60 percent of them are actually--they commit the 
crime of crossing the border illegally.
    Reverend Staver. With all due respect, Congressman King, if 
we just simply--I mean, we really have three options: deport 
everybody, give them all complete forgiveness with no 
consequence, or deal with them somehow.
    I think it is impractical and impossible to just simply 
deport 12 million. And, in fact, if you do that, you will tear 
apart families. You will tear apart families where the children 
are legal and their parents are not. You will tear apart 
families or people who have no idea what their home country is, 
cannot even speak the language of their home country. And I 
don't think any of us want to see those kinds of people on 
national television.
    Mr. King. Well, let me submit this. What I am suggesting we 
do is that people that break our laws, we put them back in the 
condition that they were in before they broke the law.
    And I would turn then to Reverend Land--and, again, I 
appreciate your testimony, as well--an example that you used 
was if we had, let's say, video cameras up and we were able to 
record speeders for 20 years and then we would send them all a 
ticket for every time that they speeded.
    I would argue that there is another viewpoint on that, and 
what I am hearing advocated here, by some of the members of 
this panel at least, is that--I would use this other metaphor, 
that, well, no, let's grant them--however our definition is, 
and I will stick by mine, on amnesty. But we are going to do 
this, we are going to give people a pass for all the times that 
they speeded, but they didn't have a driver's license. And we 
are going to give them not only the driver's license but we are 
going to let them then speed the rest of their life, as well.
    That is what I think is the real metaphor here, the 
difference between granting amnesty and calling this something 
equivalent to a traffic violation from some years ago.
    Mr. Land. With all due respect, the one thing that you 
didn't mention that Matt and I did mention was going to the 
back of the line, that they go to the back of the line behind 
those people who have been and are trying to come here legally, 
so that they pay a penalty of going back to--as if they were 
just coming into the country.
    Mr. King. Where does that line form, Reverend Land? That 
back of the line, when they go to the back of the line, 
physically, where are the people that go to the back of the 
line?
    Mr. Land. Well, you know, I am very impressed with the U.S. 
Government's ability to keep records. I have been audited once, 
and I was very impressed with their recordkeeping.
    Mr. King. Me, too. Actually, more than once.
    Mr. Land. By the way, I came through okay, but it was an 
interesting experience. It gets your--it focuses your full 
attention.
    I think we have a broken immigration system that needs to 
be fixed, and it is your job to fix it. So you need to decide 
where that line forms.
    It forms in government recordkeeping that you have to--you 
go to the back of the line--you registered on this date. You 
came forward during the grace period, and you registered on 
this date, and you agreed to pay these fines. You agreed to pay 
these fines----
    Mr. King. Reverend, watching our clock, I am sorry, but 
watching our clock, that line actually is still in the United 
States.
    Mr. Land. Yes, sir.
    Mr. King. People don't go back to their home country. The 
back of the line is actually in the other countries where 
people are waiting to come into the United States of America. 
And that is my point.
    And I would just briefly then ask Bishop Kicanas this 
question. You testified that about 5,000 people lost their 
lives in the Arizona desert during a period of time, I believe, 
1988 until present. It is tragic, and I share that sense of 
empathy that you have expressed in your testimony.
    But I would ask if you have contemplated or if you know the 
numbers of Americans who died at the hands of some of those who 
did make it across the desert as victims of crimes and that are 
part of the drug culture that we heard from Mr. Gutierrez and 
just part of the violence that comes from the about 4 million a 
year that try at the border.
    Do you have any idea how many Americans died at the hands 
of those who made it across the desert?
    Reverend Kicanas. Well, it is certainly true to say, 
Congressman, that some who enter this country do so with 
criminal intent and act in ways that harm others. But that is 
clearly not the majority of those who are entering this country 
illegally.
    The vast majority of those are good people who are looking 
for a decent way of life for themselves or their families, who 
want to contribute to the community, who want to add to the 
life of the society. And it is that individual that is of 
concern.
    Certainly, a person who comes here with criminal intent or 
who harms another person, this is something that the law must 
address and needs to address.
    I was humbled to be able to celebrate the funeral mass for 
Rob Krentz, the rancher who died in Cochise County. There were 
1,200 ranchers present for his funeral. It was a sad and 
painful moment for Susie, his wife, and for the whole family 
and for the whole community. This is tragic.
    Now, we don't know exactly yet what happened, but perhaps 
it was a drug smuggler, and that is an unconscionable crime 
that needs to be addressed, that needs to be dealt with fairly 
and justly. On the other hand, the person, if it were a drug 
smuggler or a migrant who perpetrated that crime, that is not 
characteristic of the numbers of people who are crossing the 
border. It is an entirely different situation.
    Mr. King. You recognize the American victims are in 
multiples of the 5,000 that you testified to, I think, though, 
also. I thank you very much.
    Thank you, Madam Chair. I yield back.
    Ms. Lofgren. The gentleman yields back.
    I recognize Mr. Conyers, the Chairman of the Committee, for 
his questions.
    Oh, I think Chairman Conyers is deferring to Chairman 
Berman, who is recognized for 5 minutes.
    Mr. Berman. Well, thank you, Madam Chairman.
    And thank you, Chairman Conyers.
    Dean Staver, this issue of what is amnesty and what is 
not--what Jimmy Carter did was a blanket amnesty. It defined a 
group of people and said, they are okay, notwithstanding what 
they did.
    The 1986 law that Ronald Reagan signed turned out to be 
seriously flawed, not because it gave a blanket amnesty; it 
required individuals to apply, to pay money, to take English 
language courses. It didn't have all the features of what we 
talk about now with earned legalization, but it was a specific, 
individual generated legalization program that conferred a 
temporary status before it confirmed a permanent resident 
status.
    The flaws were that it didn't--while it attempted to, in 
terms of increasing border patrol numbers, it didn't, quote, 
``secure the border.'' It didn't deal with the population that 
Mr. Gutierrez referred to that comes on student visas or 
tourist visas and then overstays and melds into the society. 
And, most of all, the I-9 forms that Mr. King keeps in his 
files were not a substitute for an effective process of 
requiring employers to verify the status of their workers. And 
so we have a problem compounded at this particular time.
    You mentioned three alternatives. There is a fourth 
alternative. It is the alternative we seem to be locked into, 
which is railing about the issue and leaving the status quo, 
with all of the problems that exist, including the exploitation 
and the continued magnets that exist and created this 
situation.
    But, Dr. Land, I really did appreciate your testimony, and 
I take your point. It doesn't deal with that part of the 
population that my colleague, Mr. Gutierrez, referred to, but 
it certainly is a significant part of the issue, the control of 
the border and the securing of the border.
    I did not take what you were saying to: We now spend 
greater time and effort to figure out how to truly secure the 
border. We know all kinds of efforts have been taken. We know, 
to some extent, it is far more difficult to cross the border 
now than it used to be.
    I took your comments to mean: a logical process as we pass 
legislation that focuses, at its initial stages, on an effort 
to do better at the border; that you create metrics and tests 
for determining when that is met; and when that test is met, a 
process that allows--and you, at the same time, implement the 
kind of employer verification system that tells people about 
legal status. And when that system is designed and ready to be 
implemented, you allow a process where people, under the test 
that you have outlined for an earned legalization program--
payment of fines, tax issues, back of the line--comes into 
being.
    It isn't that you--because sometimes people use the 
argument, ``Secure the border,'' as an argument to do nothing 
else now. And so, I just want to clarify that your notion is a 
total scheme that puts that as the first test, but then, at the 
point where it is reasonable to conclude that has been 
achieved, these other operations move into effect.
    Mr. Land. Yes, sir. I think that the effort last time, as 
noble as it was in 2006, has shown us there is not a sufficient 
trust level to do this simultaneously, so you are going to have 
to do it sequentially.
    But you can do it in the same law. You can have a law that 
has border security. And once those metrics have been judged as 
having been met, then it triggers the second part of the law, 
which would focus on the pathway to earned citizenship or legal 
status.
    And I think that part of border security is going to have 
to be--we are going to have really much tougher laws on those 
who exploit undocumented workers by employing them illegally, 
and you have to take away any excuse they have. And so I am 
going to get really radical here. I am going to suggest that 
what we really need is a tamper-proof biometric Social Security 
card for anybody who wants to be employed in the United States.
    Because if you have--and, look, I know people get all upset 
about national Social Security cards----
    Mr. Berman. I don't.
    Mr. Land [continuing]. But we all have a Social Security 
card. I mean, when I go teach for my best friend at 
Southwestern Seminary, I have to show him my Social Security 
card before they can employ me. So we all already have one.
    And if you had a biometric tamper-proof Social Security 
card, this would lessen the pressure on the border. Because if 
they manage to get across, if you told employers, ``You are 
going to get 6 months in jail if you hire somebody who doesn't 
have that card,'' they won't be able to survive.
    Mr. Berman. Well, I think my time has expired.
    Ms. Lofgren. The gentleman's time has expired.
    I would recognize the former attorney general of 
California, my colleague, Mr. Lungren.
    Mr. Lungren. Thank you very much.
    As the person who was the Republican floor manager for 
Simpson-Mazzoli in '86 and got the Republican votes to pass it, 
I recall very well the discussions in the long period of time 
we had in passing that bill. I must say, however, to my friend 
from California, it did apply to those who entered this country 
legally and whose legal status was overstayed, so long as that 
illegal status occurred 4 years before the date of the bill.
    Mr. Berman. Will the gentleman yield?
    Mr. Lungren. Yes.
    Mr. Berman. My point wasn't that it didn't apply. My point 
was, nothing in that bill dealt with trying to remedy that 
problem from continuing to happen.
    Mr. Lungren. Well, all right. The point I am trying to make 
is, it applied to all people who were in illegal status 4 years 
before the signing of the bill.
    So my first question would be to all of you--and hopefully 
just short answers--to whom should this apply? Someone who has 
just gotten over the border? Someone who has been here 6 
months, a year, 2 years, 3 years, 4 years, 5 years?
    Because our argument back in 1986 was that, as a matter of 
justice, we felt that those people who had put down roots in 
the community ought to be treated differently than those who 
had not.
    So if I could just ask you down the line.
    Mr. Land. Well, that would be for you to determine.
    Mr. Lungren. No, no, no, no. I am asking, what is your 
opinion?
    Mr. Land. Well, I would say that you would have to have a 
sliding scale.
    Mr. Lungren. Where would you start?
    Mr. Land. Those who have been here 20 years, for instance, 
would have less of a time of waiting and they would move up. 
And you would have to set that at some arbitrary date.
    Mr. Lungren. I know. I would like to know what your opinion 
is, when does someone have sufficient roots in the community--1 
year, 2 years, 3 years, 4 years?
    Mr. Land. That is probably above my pay grade, sir.
    Mr. Lungren. All right.
    Bishop?
    Reverend Kicanas. Reform means to bring people out of the 
shadows. And to the extent that we can do that comprehensively, 
that would be our encouragement.
    Mr. Lungren. So I guess you would say, if they have been 
here a day?
    Reverend Kicanas. Certainly, there should be some cutoff, 
and I think that would be up----
    Mr. Lungren. Well, what should that be?
    Reverend Kicanas. I would say, minimum, perhaps a year.
    Mr. Lungren. Sir?
    Reverend Staver. Congressman, I don't have a magic bullet 
as to when that time would be, but I would agree that there 
would be some kind of sliding scale.
    However, because that is a difficult question, and there 
are many difficult questions, that question alone and any 
others that we face should not be used to obfuscate or delay 
passage of some kind of----
    Mr. Lungren. With all due respect, sir, I am not asking to 
obfuscate. This is a very difficult issue. I spent 10 years 
trying to get it done the first time around, and these are the 
difficult things we have to do.
    Reverend Staver. I understand.
    Mr. Lungren. And when you are talking about trying to have 
a balance between what you say is fair treatment for those who 
have been here legally--that is, immigration--illegal 
immigrants, and the rule of law, you have to determine that.
    And so, my question is, do you think that is a public 
policy issue we have to deal with? That is, should there be a 
differentiation between people who have been here 5 years and 
just got here, number one?
    And, number two, do you not understand that if you make it 
so close to the time of illegal entry, it encourages others to 
come in the future and you will never have a permanent law?
    Reverend Staver. No, I agree with you on that point, 
clearly. And, certainly, I think you do need to have some kind 
of scale, and you have to be careful that if you say you are 
going to provide this, that you don't have all of a sudden a 
flood of immigration that is illegal, that people want to take 
advantage of what we are trying to address here. And it makes 
the problem even more complicated.
    Mr. Lungren. Let me ask this question of the three of you. 
When we passed this law in 1986, we made the statement it would 
be a one-time only, because we thought it was a one-time-only 
phenomenon. And one of the reasons we did that was we did not 
want to encourage continuing illegal immigration. And we were 
afraid that if it were viewed as a sequential thing--we do one 
now, we do one in 20 years, we do another one in 20 years--it 
would defeat the purpose of securing the border.
    Do you understand that? And is that something that we ought 
to be concerned about?
    Mr. Land. Yes, sir. That is why I said border security 
first. And when I mean secure the border, you have control of 
the border. You decide. You----
    Mr. Lungren. How do we answer the question that we did this 
once before, said it was going to be the only time we did it, 
now we are doing it again?
    Mr. Land. Well, the Federal Government didn't enforce the 
law and they haven't enforced the law for 24 years. That is 
what has bred disrespect for the rule of law. Under Republican 
and Democratic administrations, our own Federal Government has 
chosen not to enforce its own laws.
    Mr. Lungren. Bishop?
    Reverend Kicanas. Illegal immigration is not good for 
anyone. It is not good for the person crossing the desert at 
risk to their own life. It is not good for a country not to 
know who is crossing its border.
    So, definitely, if there is an earned pathway for those who 
are here, it will provide, then, legal entry, if there is a 
worker program connected to the reform so that there is a legal 
way for people to come.
    Mr. Lungren. Should that worker program allow them to bring 
their families with them, or should it be a temporary worker 
program in which they come to the United States for, let's say, 
10 months out of a year but must return to their home country 
after 10 months, although they could then return in the 
following year?
    Reverend Kicanas. The church has always been insistent on 
family integration, and the separation of families is not 
helpful. It is not helpful to the family, it is not helpful to 
the society. So, to whatever extent possible, families should 
be kept together in a worker program, if that is feasible.
    Mr. Lungren. So they should be treated better than our men 
and women in the Armed Forces who are separated for 10, 12, 18 
months' deployment?
    Reverend Kicanas. Well, that is an entirely different 
situation----
    Mr. Lungren. Well, I understand.
    Reverend Kicanas [continuing]. And not analogous, really.
    Mr. Lungren. The other thing I would just ask you is, do 
you recall the SAW Program and the RAW Program, Seasonal 
Agricultural Worker Program and the Replenishment Agricultural 
Worker Program, in the 1986 law? Do you think that worked well?
    Reverend Kicanas. I know that there are concerns, in terms 
of, for example, in Yuma, which has a huge agricultural 
workforce, and the need to bring workers over the border. And 
there has been great concern about the fact that they have to 
build housing and they have to find a way to retain people, 
when, really, the intention of people is to go back home. They 
want to be back home with their families.
    Mr. Lungren. Right. That is a different program. The only 
thing I am just trying to mention for you and your colleagues 
is we put a Seasonal Agricultural Worker Program and a 
Replenishment Agricultural Worker Program in the 1986 law, as 
opposed to a specific temporary worker program. Unfortunately, 
the SAW/RAW Program had the greatest amount of fraud of any 
program I know, and we were not able to police it, and many 
people made assertions that they had worked in agriculture 
during the period of time we required who hadn't. And it became 
a backdoor way of getting in the United States even though you 
didn't meet the qualifications.
    And I know I have overstayed my time. I just want to say 
this, though. As we talk about treating people fairly, I have 
to also think about the people in Mexico, the people in Africa, 
the people in the Philippines, the people in Europe, the people 
all over the world who have followed the law.
    In the 1970's, we changed our law to have a worldwide quota 
system, which was supposed to mean that everyone had an equal 
chance to get in the United States. And when you have rampant 
illegal immigration, significantly from any portion of the 
world, it makes it unfair to those who have waited in line.
    And I have to say this: As we go forward--and I hope we do 
do something--as we go forward, you should also think of what 
it does or says to those people who followed the law, who have 
been waiting 10 years, 20 years in the Philippines to come 
here, in Africa to come here, in Mexico to come here. And what 
does it say to them if we say, ``You were the saps. And those 
that broke the law and came here are, frankly, going to be 
treated differently.'' And I am not saying that is the answer, 
but I am saying we also have to understand what justice means 
to those who did follow the law.
    Thank you very much.
    Ms. Lofgren. The gentleman yields back.
    I understand that Ms. Jackson Lee is prepared for her 
questions and would be recognized for 5 minutes.
    Ms. Jackson Lee. Madam Chair, thank you so very much for 
this very important hearing.
    I could not acknowledge the clergy here today without 
acknowledging in my hometown of Houston Cardinal DiNardo, 
Reverend Clements of the National Baptist Convention, and 
Bishop Kyles, among many others, who have led a very potent and 
important convening of souls who have supported and understood 
the ethics and the humanitarianism of real, comprehensive 
immigration reform.
    And I am humbled by the sincerity of my colleague from 
California, and I believe that he is sincere. But I think it is 
important to maybe go against the grain of a familiar refrain 
in a song that says, as I remember, ``tiptoe through the 
tulips.'' And I think that we are tiptoeing through the tulips.
    I would adhere to the fact that, once a law is passed, we 
should be meticulous in how it is implemented. Reverend Land, I 
believe that your controversial statement to some should be on 
the table. But we must have it on the table where we can all 
discuss it in its implementation and so you can hear the cons 
for those of us who may not agree and we can hear the fors. But 
the good news would be that we have moved forward.
    I worked for a very large nondenominational church to give 
them relief for one of their evangelistic workers who didn't 
meet a standard to get a visa to be able to come in. And we 
attempted to change the law. I think we worked on it because it 
said a Catholic for a Catholic, a Baptist for a Baptist, and we 
said it should just be a religious worker so that people could 
come in and help to save souls.
    But the greatest impediment for passing legislation--and I 
refer to legislation that I have, Save America Comprehensive 
Immigration Act, and I refer to one that has drawn many, many 
sponsors, H.R. 4321, I call it Ortiz-Gutierrez, which--you 
would be shocked. Maybe you have read it. Please read it. It 
has pages and pages and pages of border security provisions, 
ones that if you took a moment to read it, you would understand 
that we are reasonable, we are responsible, and we are 
compassionate.
    So the one major impediment is the Republican Party. Every 
single Republican is committed to denying, denouncing, and 
ensuring that this President fails on immigration reform, that 
this Congress fails on immigration reform. And you tell me, how 
do we overcome that kind of mindset?
    Nothing you could say here today--you could take wings and 
fly around this room. You could create the opportunity, and 
President Land is looking for an opportunity, to fly. As they 
say, let me fly where the eagles fly. You could fly with the 
eagles, and you would not get them to get past the political 
schism that they have.
    Let me share with you some numbers that I want to put into 
the record: 1994, 6.9 percent; 1995, 5.59 percent; 1996, 5.41 
percent; 1997, 4.94 percent; 1998, 4.5 percent; 1999, 4.22 
percent; 2000, 3.97 percent--U.S. Department of Labor 
unemployment figures.
    I was a Ranking Member of the Immigration Subcommittee 
during that period when Republicans were in charge under Newt 
Gingrich and under the subsequent Speaker of the House. We 
could not move immigration reform, and we had the lowest 
unemployment that we could ever have. It bothers me now to use 
the excuse of unemployment for that.
    Could I ask the clergy quickly to--and if I can start with 
President Land. What do we do about Senator McCain and Senator 
Graham, who committed to us to work together in a bipartisan 
way?
    I don't think this should be a single-party issue. It 
should be an issue for America. And let me remind everyone that 
the idea of immigration reform is to take care of those who are 
stranded here in this country.
    President Land, what should we do with that mindset that no 
immigration reform will pass as long as I am a Republican in 
the United States Congress, which I am not?
    Mr. Land. Well, I think, Congresswoman Jackson Lee, in my--
you are a representative of my hometown of Houston.
    Ms. Jackson Lee. Good to see you.
    Mr. Land. And the Texas Pastors Council just had a press 
conference last week, issued a statement on comprehensive 
immigration reform signed by a lot of conservative Baptist 
pastors, and was a multi-ethnic statement dealing with the 
Texas legislature and their attempt to implement some form of 
the Arizona law. And I know some of those churches; those 
churches are filled with people who vote Republican.
    I think, frankly, the country is ahead of you on this 
issue. I think, with all due respect, is country is 
significantly ahead of you on this issue.
    Ms. Jackson Lee. Excellent.
    Mr. Land. And they are waiting for leadership. They are 
waiting for statesmanship.
    I believe that there is--the foundation and the building 
materials and the blueprint for a centrist comprehensive 
immigration reform package is there. It is out there in the 
country, waiting to be constructed by people who are willing to 
be statesmen. As you know, Churchill said, ``Politicians think 
about the next election. Statesmen think about the next 
generation.''
    This issue is rendering the social fabric of the Nation. I 
think the Arizona law and the attempts to implement the Arizona 
in other States shows this. There is great frustration with the 
lack of Federal Government comprehensive immigration reform and 
the Federal Government enforcing its own laws.
    It breeds disrespect for the rule of law when the Federal 
Government ignores its own laws. And I think any fair 
observation of what has happened over the last 24 years is 
that, more often than not, our own Federal Government has just 
ignored its own laws when it comes to border security and when 
it comes to immigration enforcement.
    And let us understand, as well, that we as a Nation bear 
some responsibility for that, because we are a government of 
the people, by the people, and for the people. We have had two 
signs up at the border for at least the last two decades. One 
says, ``No trespassing,'' and the other says, ``Help wanted.'' 
The vast majority of these people have broken the law in order 
to come here and work.
    Ms. Jackson Lee. Absolutely.
    Mr. Land. Whereas our domestic law breakers break the law 
in order not to work.
    And they have been able to do it because the jobs are 
there. And, by the way, I have seen studies that show that 
undocumented workers lower the wages of those at the lower end 
of the wage scale by approximately 10 percent--all workers, 
documented and undocumented. So that if we had comprehensive 
immigration reform, it would have the impact of raising the 
wage scale by about 10 percent at the lower echelons, where 10 
percent makes a real difference and would make a real 
difference in the living standard of those who are in the lower 
echelons of our society.
    So what I am doing is I am saying this is not an issue of 
right and left, it is not an issue of Republican and Democrat, 
it is an issue of right and wrong, and encouraging people to 
talk to their congressmen and talk to their Senators.
    I didn't even know about what the Houston Baptist pastors 
were doing----
    Ms. Jackson Lee. Yes.
    Mr. Land [continuing]. Until they informed me. And they 
said, ``Thank you for your leadership in Orlando, and we are 
going to respond to what is being attempted in Austin.'' And I 
can assure you that the churches of the pastors that are there, 
a significant majority of them vote Republican.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank you very much.
    Ms. Lofgren. The gentlelady from California, Ms. Waters, is 
recognized.
    Ms. Waters. Thank you very much, Madam Chairwoman.
    I appreciate your holding this hearing today. It is very 
important that we create a discussion and a debate about 
immigration reform. And it is very important that the 
government accepts--the Federal Government--its responsibility 
for immigration reform. I am pleased that we have witnesses 
here today.
    And several times I have heard my colleagues talk about 
trying to create a reasonable discussion where Republicans and 
Democrats can get together and really talk about this issue in 
ways that will help to solve the problem. But what I am 
finding, as I learn about some of the reasons for opposition to 
immigration reform, is that we are so far apart philosophically 
that I don't know how we are going to be able to really get 
together and have this debate and this discussion.
    I was intrigued by the testimony of James R. Edwards, Jr., 
Ph.D., today and this discussion about the ability for 
Christians to display and implement compassion and mercy but 
that governments can't do that, that governments should not 
attempt to use its civil responsibility in that way, that it 
can be more harmful than not.
    Let me find out a little bit more. I asked my staff, find 
out who this gentleman is. And, as we understand it, you served 
as a fellow at the Center for Immigration Studies. Is that 
right?
    Mr. Edwards. Yes, ma'am.
    Ms. Waters. Are you familiar with the case of Eduardo 
Gonzalez?
    Mr. Edwards. No, ma'am.
    Ms. Waters. Eduardo Gonzalez I guess is being deployed on 
his third tour of duty with the U.S. Navy, and he has or will 
be serving on the USS Harry Truman in the Persian Gulf. His 
wife is not a U.S. citizen, and his child, and they face 
deportation. And their deportation was advocated for and sought 
out by the center where you did your studying, where you were a 
fellow.
    Do you support that kind of deportation of the family of 
someone who is deployed to serve, to protect the United States 
of America?
    Mr. Edwards. Well, not knowing the facts of that specific 
case, I hesitate to comment directly on that. But I would say 
in general that there are elements in the law that allow 
exceptions in certain cases, and that may well qualify as the 
exception.
    Ms. Waters. The Center advocated for his deportation. Do 
you believe that someone who serves in the United States Armed 
Forces should have to worry about their family being deported 
because they are not--the wife, the child are not citizens? Do 
you think that is right? Or is it government should not be 
compassionate enough to consider the plight of the wife and the 
child because that is not our role, as you have articulated in 
your testimony about the role of government?
    Mr. Edwards. What I have said in the testimony is that it 
is clear from scripture that the role of government, properly, 
is more on the justice side. And certainly we have elements of 
compassion or mercy that are reflected in our government, which 
I would agree, as Congressman Gutierrez noted earlier, that 
should be reflected to an extent, and things such as in general 
where it applies very even handedly, such as the role of due 
process or punishment that fits the offense----
    Ms. Waters. In your testimony, if I may, in closing, this 
is what you say: ``It would be unwise to misapply Biblical 
principles in any public policy area. This is true with respect 
to immigration. Immigration,'' you say, ``is one of those 
issues in which scripture does not detail a normative public 
policy. This issue differs from clearcut Biblical precepts, 
such as prohibiting murder, stealing, or perjury. Thus,'' you 
say, ``we have to consider which Biblical principles do 
appropriately apply, carefully assess the situation at hand, 
consider this Nation's experience and unique characteristics, 
judiciously estimate the impact of various policy options, and 
then exercise prudent judgment.''
    Okay, I am clear about that. That puts us a long way apart, 
and let me tell you why--particularly with this separation 
issue.
    I am in the process of reading three books right now. One 
is known as ``The Known World.'' The other is known as 
``Wench.'' And of course I am reading the biography of the 
British legislator and abolitionist, Mr. Wilberforce. All of 
these books are about slavery. And I have decided to spend a 
lot of time trying to understand not only what took place 
during slavery but the implications of that even today.
    One of the most vicious and heart-wrenching components of 
slavery was the separation of families, where children were 
sold off, where fathers were sold off. And when we look at this 
immigration issue, it emerges again that families could be 
separated, children could be separated from their parents.
    What do you think government's role is in looking at this 
family situation, where families could be separated? What is 
the role of Christianity? What is the role of religion in 
looking at this, and what is government's role?
    Ms. Lofgren. The gentlelady's time has expired. By 
unanimous consent, we will grant the gentleman 30 seconds to 
respond.
    Mr. Edwards. Where do I start?
    In general, I would say that there is a distinction between 
those who knowingly broke the law and took a chance and would 
be separated by their family if they were caught and held to 
certain--whatever consequences, be it imprisonment or whatever. 
I mean, it is the same story as an embezzler or any other 
person who breaks the law would be separated from their family 
members.
    The person who comes here as a lawful permanent resident, 
played by the rules, and is separated because of the quota of 
waiting the turn of his spouse and minor children because the 
citizens who came here before him are joined more quickly with 
their more extended family members, to me that is a family 
separation issue of greater import to the government. And it 
would be more compassionate to join the spouses and minor 
children than to prioritize more distant family members.
    Ms. Lofgren. The gentleman's time has expired.
    I know Dr. Land has to leave in about 15 minutes, so I am 
hoping we can get to all our Members.
    Mr. Land. Could I just say that attached to my testimony 
that was submitted to the Committee, in Appendix 5 is 
``Principles for Just Immigration Reform,'' where we try--Dr. 
Barrett Duke, who has a Ph.D. in Old Testament studies, and I, 
who have a Ph.D. in theology--try to take the Biblical 
teachings and apply them to what we perceive as being an 
ethical immigration policy. And it is much too long to go into, 
but I would refer you to it.
    Ms. Lofgren. Thank you. And we will commend that to our 
Committee.
    Mr. Gutierrez is recognized for 5 minutes.
    Mr. Gutierrez. Thank you, Madam Chair.
    I want to go back to Dr. Richard Land. Tamper-proof 
biometric Social Security card, it is in our bill. We want to 
make sure--because I agree with you totally. You want to end 
illegal immigration? Tell them they can't get a job in America. 
Now, I am saying that. I am about as pro-immigrant as you can 
get. Tell them they can't get a job in America, that we are 
going to end illegal immigration, and we are going to end it 
once and for all.
    Let's just confess to ourselves, 1986 was a good start, but 
it was a flawed bill. And it was, in essence, amnesty. To the 
extent that people applied, if you had been here 4 years, you 
show up at an office, you go through a quasi-background check, 
and guess what? Eighteen months later, you go from temporary 
resident to permanent resident.
    The law was passed in 1986. I got elected to Congress in 
1993. In 1994, I started at the beginning of a process that 
brought out 50,000 people in my district to become American 
citizens. From what? From that bill. So you see how quickly 
people went from 1986--they didn't open up the first office 
until 1998, but by 1994 they were already applying for American 
citizenship.
    That is pretty much--that is not what our bill says today. 
What our bill says today, you have to go to the back of the 
line. They make fun of this back of the line. It is nothing to 
be made fun of. The back of the line is a long time away from 
you ever becoming an American citizen and gaining permanency in 
the United States of America. Because what we do is we are 
family-friendly. So we say, all of those people that are 
waiting in line, during the next 5 years they will receive 
their visas. In the next 5 years, in any comprehensive bill, 
you must take--it is immoral, wrong, unethical, to make someone 
wait 25 years to bring their brother to America when we know 
that they are on the verge of dying, that their life is all but 
done.
    That is not our law. Our law is to bring families together. 
So what we say is, let's put them--and once everybody that is 
in line and has been waiting lawfully in line is taken care of, 
then you begin with those that are undocumented. But you place 
them somewhere in the line.
    And all I want to say to everybody is, think about it a 
moment. Think about it a moment. If we create a system that 
doesn't allow people to ultimately become American citizens, 
aren't we undermining our country? Isn't that what we want, is 
people to come here to invest themselves, not only economically 
but socially, but in terms of their heart and their soul by 
saying, ``This is my country,'' and adopting the United States 
and following that position?
    That is why we are not like other countries. That is why 
America has become the cemetery of so many foreign languages. 
Think about it. Germans came, buried German, right? The Polish 
came. We buried Italian. We just keep burying languages. And 
English just continues to be the language of the Nation, one 
after another. Why? Because we have allowed them to integrate 
themselves fully.
    So this is really--I want to thank you all, because this is 
really--because we agree with you, biometric. I love when 
leaders of our faith-based community begin to speak simple, 
clear facts. We need a tamper-proof biometric. We need Dr. Land 
and Bishop--we need to make sure we secure that border and do 
everything. And if we need to get metrics to figure it out, 
let's figure out what those metrics are so that we can secure 
that border.
    But we need to secure everything totally, so we agree with 
that. We need to punish those employers that exploit them. We 
agree. Every Democrat here on this side is ready to put them to 
jail for long jail sentences if they hire undocumented workers 
and illegal workers in this country.
    Now, after hearing all of this, you said, ``Well, Luis, 
then what is the problem? You are for securing the border. You 
are for a biometric card. You are for putting employers in 
jail. That is going to be the solution to ending illegal--what 
is the problem, Luis?'' The problem is, what do we do with the 
12 million undocumented workers that are already here?
    And you know what? You have been--you have heard it again 
here today. So I want to thank--especially I want to thank the 
Reverend Mathew Staver. It isn't amnesty, but you know what 
they have done with amnesty? They have changed it from a seven-
letter word to the dirtiest four-letter word that can be. And 
if today were Halloween, instead of kids knocking on their door 
and them saying ``boo'' as is the tradition, they would say 
``amnesty,'' as though to scare us once again. That is what 
they have done with the word, a word that has no relationship 
with what we are doing.
    What we are saying is, quite simply--now, you know, it has 
become the norm here not to speak about charity, not to speak 
about forgiveness, not to speak about--look, I am not a 
theologian, I didn't come here with my Bible. You know, I am a 
good Catholic, you know. But I will tell you, I learned two 
things: to love God above everything else and to love my 
neighbor as I love myself.
    And let me tell you, I cannot fulfill that principle if 
when I sit in a pew and I know the person sitting in the pew 
next to me is undocumented and I don't love them as much. And 
when I register my kids to go to school--and this is not 
hyperbole--when I registered them in 1st and 2nd and 3rd grade, 
when I take them to school, I know there are undocumented 
children. When I go to teacher-parent conferences, when I go to 
the park--everywhere I go they are there. They are an integral 
part of my life.
    They are so ingrained in our life. They are our neighbor, 
not only in the spiritual sense but in the factual sense. They 
live next to us, they live among us, 4 million American citizen 
children, hundreds of thousands of American citizen wives, 
hundreds of thousands, and husbands who are married to 
undocumented--do you really propose that the government go out 
there and destroy these families? Do you know what it would do 
to the fabric of American society to take 12 million people and 
rip them asunder?
    It is not reasonable. So what I suggest to all of you is 
that we meet again, that this testimony is good, but you guys 
got a little different thing than most people that come here. 
You know, you have a mission in your life. You have different 
objectives and different goals, in terms of what you want to 
do. I want to see if you can help us reach those goals. And for 
that, I thank you for the wonderful testimony here this 
morning.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Smith wants to catch his breath. Oh, he is ready? The 
Ranking Member of the full Committee, Mr. Smith, is recognized 
for 5 minutes.
    Mr. Smith. Thank you, Madam Chair.
    Mr. Land, let me direct my first question to you. And I 
apologize for being gone during your testimony because of 
having to attend another Committee's markup.
    But, as I understand it, you do have some concerns about 
chain migration. And to the extent that you didn't elaborate on 
that, could you tell us what aspects of chain migration you 
would eliminate and which ones you would keep?
    And to the extent that you agree with it, what would you 
substitute for chain migration? Would you put a greater 
emphasis on those who have the education and skills we need in 
America, for example?
    Mr. Land. Well, in Appendix 5 of my testimony, which is 
attached, I talk about chain migration.
    The process of bringing extended members of one's family to 
the United States once one family member is settled here is a 
significant concern to us and many people in the Nation. If we 
are to allow millions of people to remain here, we must find a 
way to limit the influx of extended family members so that we 
leave room in our Nation for future immigrants who have no 
family here.
    We propose that chain migration be limited to spouses and 
their natural or adopted children. We recommend that hardship 
exceptions be part of the limits, to enable children to bring 
elderly parents to the U.S. who have no means of support in 
their home countries. In order to maintain our commitment to 
bringing in additional immigrants, we recommend that the number 
of family members who can be united with family members in the 
U.S. be subject to an annual cap.
    Mr. Smith. Thank you.
    Mr. Land. And the reason for this is that, otherwise, you 
get into numbers that are extremely large.
    Mr. Smith. Right. Okay. Thank you.
    Mr. Land. It is a hard decision, but that is the decision 
that we recommend.
    Mr. Smith. Right. Thank you for that answer, and it is 
appreciated.
    Bishop Kicanas, I know that the Conference of Catholic 
Bishops does not or claims not to support open borders. My 
question to you is, what illegal immigrants would you agree to 
deport or not admit?
    In the case of those individuals that we might send home, 
would you agree to send individuals home, for example, who had 
been convicted of crimes? Would you agree to send individuals 
home who are working illegally in the United States?
    I want to give you an opportunity to show that you are not 
just for open borders, that you do agree to enforce some 
immigration laws.
    Reverend Kicanas. Yes, clearly, the bishops of the United 
States do not support open borders. We call for border security 
to address appropriate issues that are concerns along the 
border. For example, drug trafficking, human trafficking, 
weapons smuggling--these are all serious issues.
    Mr. Smith. What about the category of individuals I asked 
specifically about? Would you support deporting those 
individuals who had been convicted of crimes and those 
individuals who were working illegally in the United States?
    Reverend Kicanas. I think we would certainly support a 
judicial decision that someone should be deported or a decision 
that is made about someone----
    Mr. Smith. Would you deport individuals in those two 
categories?
    Reverend Kicanas. I missed the second category. The 
category was those who had committed crimes?
    Mr. Smith. Those who had been convicted of crimes and those 
who had been found to be working illegally in the United 
States.
    There seems to be bipartisan agreement on those two 
categories of individuals. I just wondered if you all, as a 
conference, also supported the deportation of those 
individuals.
    Reverend Kicanas. What we support is comprehensive 
immigration policy reform. With regard to deportation, clearly, 
this is something that the government has to determine who 
should be deported. We would certainly support----
    Mr. Smith. No, I understand that. My question is, does the 
Conference support deporting individuals who had been convicted 
of crimes and who have been found to be working illegally in 
the United States? Yes or no? Does the Conference have a view 
on that?
    Reverend Kicanas. That really isn't--I mean, the position 
of the Conference is to reform our immigration policy. Now, the 
issue of deportation is affected by a comprehensive immigration 
policy.
    Mr. Smith. But you are not willing to state those 
individuals should be deported. It sounds to me, if you are 
not, then I don't know who you would agree to deport, if 
anyone.
    Reverend Kicanas. It is not a matter of agreeing to deport. 
The government determines who is deported. The church doesn't 
determine who is deported. So we wouldn't stand in the way.
    In fact, what we do is try to assist people on the other 
side of the border who have been deported. That is what the 
church's responsibility is.
    Mr. Smith. I don't think I am going to get a further answer 
to my question, but I thank you for your response.
    Any remaining time I have--in a minute, I am going to yield 
to the Ranking Member--but, Mr. Edwards, a question for you: Do 
you consider to be the comprehension immigration reform, so-
called, is equivalent of amnesty or not? And if so, why.
    Mr. Edwards. I do consider it amnesty. And because the 
parameters of what was proposed in the 2006 bills in the Senate 
and 2007, the most recent proposals on the table, they have 
about the same exact requirements, a de minimis sort of fine or 
fee, you know, some modest steps toward English, but there is 
no real requirement of acquisition of English language. There 
is, you know, a number of other things that are pretty small 
potatoes.
    And exactly like Congressman King said, those things are 
actually benefits to the people who--in the most part, are 
benefits to the people who are the benefits of the 
legalization. And that is, they are going to be better off if 
they learn English. They are going to be in better stead for 
the future.
    If you wanted to look at real things--and I take into 
account what Congressman Gutierrez said, that, yes, generally 
you want everybody who comes here, even people illegally, to 
form a positive emotional and cultural attachment to this 
Nation and a loyalty, a political or patriotic loyalty to this 
Nation. But that doesn't mean that everybody should be able to 
go the entire route to citizenship. You may consider that there 
are disabilities attached to people who are beneficiaries, and 
you have to sort out all the distinctions. I mean, some people 
have been here 20 years, some people 20 days. Some people have 
education; some people don't. Some people have citizen 
children; some don't.
    You have to design something that sets up all of that and 
deals with each of those specific groups in a way. And some of 
those may benefit from naturalization, citizenship, but others 
may not. But you need to think long and hard about exactly who 
should be held to what standard.
    Mr. Smith. Thank you, Mr. Edwards.
    Thank you, Madam Chair.
    Reverend Staver. Madam Chair, may I have 2 minutes?
    Ms. Lofgren. Yes, without objection. Yes, sir.
    Reverend Staver. Thank you.
    Mr. Smith. I think I technically have to be the one to ask 
for the 2 minutes, but I will be happy to do so.
    Ms. Lofgren. We are very cooperative in the running of the 
hearings.
    Reverend Staver. I just again want to thank everybody here 
for being here on this important issue and, again, encourage 
you to continue this dialogue. It is very critically important.
    The more that I review immigration laws throughout the 
history of America--and we have had many--every time that we 
have taken an anti-immigration position, it has been the wrong 
side of history.
    When I was recently in Yad Vashem in Jerusalem in January 
and February of this year, I came across a letter that was 
actually startling. It was from a Member of Congress to our 
then-President. It was regarding the ship that was filled with 
people fleeing the Holocaust, the Jews that were fleeing 
Hitler's regime. And they were circling in the Atlantic, 
wanting to land on the shores of America. He wrote a letter to 
the President urging him not to move forward with immigration 
reform, urging him to deny that ship's entrance, which we 
eventually did.
    The same arguments that were raised in that letter are the 
same arguments that we hear today, with regard to jobs, 
diluting our economy, diluting our culture. We were on the 
wrong side of history then, and I urge us not to be on the 
wrong side of history now.
    Thank you.
    Ms. Lofgren. Thank you, Dean.
    I would recognize Mr. Gonzalez, our colleague from Texas, 
for 5 minutes.
    Mr. Gonzalez. Thank you very much, Madam Chair.
    My questions will be directed to Dr. Edwards. And I am 
going to be reading from your written testimony as well as some 
previous remarks attributed to you.
    Quote, ``We may fairly conclude that it displays 
questionable judgment to rigidly construct an immigration 
policy for 21st-century America based on a handful of scripture 
passages taken out of context.'' And then in your written 
testimony today, I think you make reference to some of those.
    And you also comment, ``But to attempt to require civil 
authority to display the same manner of mercy or compassion 
that individual Christians are commanded to display would be 
ludicrous. Yet, that is what certain advocates in the 
immigration debate unreasonably demand.''
    I am not real sure where you make reference to, as certain 
advocates making that kind of a demand, because that has not 
been the testimony of the other witnesses here today, nor of 
any Member up here on the Democrat side.
    But let me ask you this. You say, ``But do these high 
standards apply to civil government?'' And then you say, ``To 
an extent.''
    So I am going to take some of those passages--and you know 
what? I don't think you are entirely wrong. You are 
substantially wrong, but not entirely wrong.
    So, ``To care for the least of these my brother''--all 
right, maybe government shouldn't do that. Maybe civilian 
authorities shouldn't do that. ``Love your enemies''--difficult 
thing to do in time of war. ``Bless those who curse you''--we 
don't really turn the other cheek all the time. ``Love mercy, 
walk humbly''--no one may vote for me if I love mercy and walk 
humbly, maybe you are right.
    You left one out: to act justly, to act justly. I think 
that does have application, whether it is in the religious 
sphere or whether it is in government service. Would you agree 
to act justly is an objective or a goal that should be sought 
by all?
    Mr. Edwards. Well, earlier in the testimony, I did cite 
Micah 6:8 in full, where it does say act justly, and I fully 
agree that----
    Mr. Gonzalez. All right, I am quoting you.
    Mr. Edwards. Yes.
    Mr. Gonzalez. Because ``act justly'' seems to be one where 
you would find a lot of disagreement, that it may not have an 
application as we form public policy here in Congress, to act 
justly. I am just--I actually, that is what I thought we were 
all elected to do, fundamentally.
    So you would agree that that is one passage, whether taken 
out of context or not, that has application in what we seek to 
do here today, to act justly?
    Mr. Edwards. That is one passage--and, in fact, it is not 
out of context, because there are so many other passages, and 
the reference point is scripture best taken is to--scripture 
interprets itself.
    Mr. Gonzalez. To act justly.
    Mr. Edwards. You have to take it as a whole. And it is very 
clear from scripture that the principle of justice and acting 
justly is fully in order, both for individual Christians or 
civil----
    Mr. Gonzalez. Okay, that is a long answer to say, yes, you 
would agree with my proposition that to act justly is something 
we should all seek, regardless of context, regardless of our 
roles, right?
    Is the present immigration law on the books just? Is it 
fair? Is it just?
    Mr. Edwards. In general. It has a lot of weaknesses because 
it is a political decision, but it has, in general, elements of 
justice. It is thought through in many regards. It allows for 
exceptions, the kind of merciful exceptions on a case-by-case 
basis, such as parole.
    Mr. Gonzalez. Well, let me ask you, is it just to view the 
12 million workers and their families in this country as 
someone that is here illegally without any chance of remaining 
in this country?
    Because it appears to me that you agree with some on the 
other side of the aisle that anything short of deportation 
would be amnesty. Because that is all you have provided us 
today. For the 12 million workers and their families--and they 
are all not from Mexico, by the way, or south of the border--
one size would fit all, that they would be deported.
    Is that justice?
    Mr. Edwards. No, sir.
    Mr. Gonzalez. And so, you would agree that we need to 
reform our laws and find exactly what the other witnesses have 
spoken to today, find an answer or solution that is fair and 
just.
    And we have been talking about an earned pathway to legal 
status. That does include penalty. In every courtroom in the 
United States, whether it is administrative, criminal, or 
civil, where there are penalties and punishments, there are 
gradations. It is not one-size-fits-all. And people are 
basically also placed on a probationary period. If they don't 
comply, then the full import of the law or punishment or 
consequence will be visited on them.
    But what I am hearing from the other side and from you 
today is not just and it is not fair. And that is what we are 
attempting to do here today.
    So I welcome and I appreciate the testimony of the other 
witnesses, and I hope that we can move forward.
    And I yield back.
    Ms. Lofgren. Thank you.
    The gentleman's time has expired. The gentlelady from 
California?
    Mr. Edwards. May I respond?
    Ms. Lofgren. I think that would be fair. By unanimous 
consent, the gentleman is granted an additional 30 seconds so 
you may respond.
    Mr. Edwards. Thank you.
    What I was trying to say earlier is very much in line with 
what you are pointing out. You cannot treat all of the 11 
million currently illegal aliens exactly the same, because some 
have been here 20 years, others have been here 20 days. Some 
have families, some don't. Some have U.S. citizen children, 
others have no children.
    You have to design very specific penalties according to 
each of those categories of circumstance. That would be the 
prudent approach, rather than saying everybody gets to stay 
here forever and become a U.S. citizen, regardless of whether 
you just crossed any border or whether you overstayed a visa or 
whatever.
    I think, exactly as Congressman Gutierrez pointed out 
earlier, it would be well in order to deal with the problem of 
visa overstays.
    Ms. Lofgren. The gentleman's time has expired, and the 
gentlelady from California, Ms. Chu, is recognized for 5 
minutes.
    Ms. Chu. I would like to ask some questions pertaining to 
labor and jobs. And, first, I would like to ask Dr. Edwards and 
then have a response from Reverend Staver.
    I am particularly disturbed by your testimony, Dr. Edwards, 
where you state that Harvard economist George Borjas has 
attributed immigration with directly reducing yearly average 
native-born men's wages by 4 percent. And I am disturbed 
because you only tell part of the story.
    Citing the statistic alone is misleading, because you fail 
to mention that Borjas concluded that, while immigration 
reduces the wages of native workers by 3.4 percent over the 
short run, he finds that immigration has no effect on such 
wages over the long run.
    In fact, it is a zero percent effect on such wages.
    And you also fail to mention that the majority of 
economists who write on this issue, such as David Card, 
Giovanni Peri, Rachel Friedberg, Jennifer Hunt, Gerald Jaynes, 
differ from Borjas and conclude that immigration has actually 
had a positive effect on the wages of most, if not all, 
Americans.
    And this is because, for one, immigrants buy things and 
increase demand on products and services. Secondly, immigrants 
tend to work in industries that, like agriculture and 
landscaping in certain parts of the U.S., would become unviable 
without their labor. And, thirdly, immigrants tend to 
complement American workers, rather than directly compete 
against them.
    And let's just take the example of agriculture. We do have 
exceedingly high unemployment levels right now. But for all the 
unemployment out there, Americans are not running back to the 
fields to do certain manual labor. And this has been 
highlighted by the Take Our Jobs campaign being run by the 
United Farm Workers and discussed on the Steven Colbert show. 
Farm workers are saying to America, ``You want our jobs? Then 
come take it.'' But after months of advertising this particular 
campaign, where they actually encourage people to come take 
these jobs, only 60 people signed up and only three have made 
it to the fields.
    And, in fact, there are estimates that there are 2.5 
million undocumented farm workers and their families in the 
U.S., but without them we don't grow citrus, berries, tomatoes, 
and other fruit. Our food would not be able to compete with the 
cheaper food from overseas.
    And if our farms go away, it is not just farm work that 
goes away; it is all the jobs that go along with it, such as 
packaging, processing, trucking, accounting, advertising. That 
all goes away. And these are jobs that are actually held by 
Americans. In other words, if you send the farm workers home, 
you eliminate millions of American jobs. Any farmer will tell 
you that.
    So, Dr. Edwards, what would you have to say about the fact 
that most labor economists have found that immigration has had 
a positive effect on the wages of Americans? And, also, if we 
lost the undocumented farm workers, would you still be in favor 
of rounding them up and shipping them home, considering so many 
Americans in complementary jobs would lose their jobs? Where 
would we get the people to perform the jobs of farm workers?
    Mr. Edwards. Again, where do I start?
    If you take Borjas's work as a whole, including his entire 
work, his book called ``Heaven's Door'' and other of his 
scholarly publications--I have read a good bit of Borjas and 
other economists--and, in general, it is the case that, where 
there are more people in the labor force, there are lower 
wages.
    Where there is the ability to substitute capital for 
labor--that is, mechanization--which happened in the tomato 
industry, for instance, at the end of the Bracero Program, we 
ended up with fewer jobs in California, particularly in the 
tomato industry, but they were higher-paying jobs, they were 
better-quality jobs, there was much more productivity and 
output.
    This is a much more complicated subject than I can answer 
in 30 seconds. But the truth is that there are plenty of people 
who would, if the wages naturally were to rise because of a 
tighter labor market, might be attracted to different sectors, 
maybe not as stoop labor but for other mechanized jobs in the 
agriculture sector.
    Ms. Chu. Reverend Staver?
    Reverend Staver. Thank you.
    I think the idea that if you just simply--that this is 
going to adversely affect the economy is an oversight. Because 
anybody who has lived in Florida or Texas or some of these 
other agricultural States--and I was raised in Florida--knows 
that there is a lot of vegetables and flowers and agriculture 
that is grown there. And a lot of these individuals are 
illegal; they are undocumented workers. If you all of a sudden 
ship them back to wherever they have originated from, you are 
simply not going to have those fields and those employers 
filled with individuals clambering to go out there and give us 
what we enjoy as Americans--a watermelon or a tomato or have 
salads. Those come from someplace. They don't come out of thin 
air. And if we were just to simply ship everyone back, that is 
going to have a negative impact on our economy and on our way 
of life.
    I think that what we ultimately see is that argument being 
used throughout history. We have continually addressed this 
issue of immigration. We have historically been opposed to 
immigration against various kinds of identifiable groups, 
whether they are Italians at one particular time that have our 
disfavor, whether they are Asians that have our disfavor, or 
Japanese or Chinese or other people of Asian descent, or Jews 
during the Holocaust. And now it seems as though it is the 
Latinos, and those primarily coming from Mexico. Every time we 
have had that issue, we have always raised the issue that, if 
we allow these individuals, they are going to take our jobs. 
And, historically, that has been absolutely proven incorrect.
    Moreover, I think that we need to not stereotype every one 
of these that are illegal or undocumented workers or immigrants 
here. It is not just the Mexicans, it is not just Italians. 
There are some other individuals from all different kinds of 
descents, from all different spectrums of the world. And we 
can't just have this cookie-cutter approach to simply say, 
``Because they will affect our jobs, we will ship them all back 
overseas.'' I think that that is not an appropriate, it is not 
a just, it is not a moral, it is not an ethical approach.
    Ms. Lofgren. The gentlelady's time has expired.
    As a matter of fact, all of the Members have had an 
opportunity to ask--I understand Ms. Jackson Lee has a 
unanimous consent request.
    Ms. Jackson Lee. I ask unanimous consent to conclude with a 
comment. I did not get a chance for my opening comment. I just 
wanted to make one brief comment.
    Ms. Lofgren. Without objection, the gentlelady is granted 1 
minute.
    Ms. Jackson Lee. Thank you.
    To all of the participants and panelists, let me thank you 
very much.
    And, President Land, because of our Houston connection, let 
me make it very clear how excited I am about the bipartisanship 
of our congregation, many of whom I worship with. And, of 
course, many constituents in my own district are Republicans 
because they are Americans.
    What I would ask as you proceed, and what I wanted the 
action item to be, is to be ever-pressing on those names and 
others who I have classified in one party--I am talking to 
everyone--to give them the message that you are giving. 
Otherwise, we will not move forward. And to give Dr. Edwards a 
rebuttable answer to what he has articulated. Because, with 
much respect, it is wrong.
    When we had low unemployment, Republicans blocked us from 
moving. And I am speaking not of the constituency but of the 
elected body. What I would pray for, and I truly pray for it, 
that we distinguish the 12 million undocumented here in the 
country. That is where the crisis is. And we have made it very 
clear, put them on the back of the line, let them work. When 
they work, others work. It is well-known.
    So my challenge to you and my question, and I would like to 
be part of it, is to convince Dr. Edwards, because he carries 
the banner for those who think they can hide under this banner 
of religiousness. I would ask that we work with those who are 
blocking us in the Senate and blocking us in the House in a 
humanitarian manner.
    And I yield back.
    Ms. Lofgren. The gentlelady's time has expired.
    I would like to thank all of the witnesses for being here 
today. A lot of people don't realize, the witnesses come as 
volunteers to help our country. And I think you all have helped 
our country today with your testimony, both oral and written. 
It is thoughtful, and it has been very helpful.
    A little housekeeping here. The Members of the Subcommittee 
will have 5 legislative days to submit any additional written 
questions to you. And if that occurs, we would request that you 
answer those promptly so that they can be made part of the 
record.
    And, without objection, the record will remain open for 5 
legislative days for the submission of any other additional 
materials.
    I would just like to note that I learned some things today. 
It is always a good day when you learn something. And, as I 
listened to you, I became hopeful. Too often here in 
Washington, we are at loggerheads. But I think what I heard 
today is that people who can disagree on many, many other 
things can come together in a thoughtful, rational, cool-headed 
manner to say what is good for our country, how do we solve 
problems. That is our job, and I think you are leading us in 
that regard.
    As Mr. Berman said, doing nothing is the soft amnesty. 
Anywhere I go, no one says ``do nothing'' about this, whatever 
people think on the subject. So I do hope that we will be able 
to pull together across the aisle and across our country.
    Obviously, America has the right to decide who is going to 
come and join us and become Americans here with us. That is an 
obligation that we have. But our rich history shows that we are 
made stronger by immigration. I think of my own grandfather who 
got off the boat at age 16 because he wanted to be free, he 
wanted to be here in America. And because of his bravery, I am 
sitting here today, and I give thanks for that.
    So this hearing is adjourned, with a thank you to all of 
the witnesses.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
